<html>
<title> - EXAMINING THE SPENDING, PRIORITIES AND THE MISSIONS OF THE BUREAU OF RECLAMATION AND THE U.S. GEOLOGICAL SURVEY'S WATER RESOURCES PROGRAM</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]




 
 EXAMINING THE SPENDING, PRIORITIES AND THE MISSIONS OF THE BUREAU OF 
 RECLAMATION AND THE U.S. GEOLOGICAL SURVEY'S WATER RESOURCES PROGRAM

=======================================================================

                           OVERSIGHT HEARING

                               before the

                    SUBCOMMITTEE ON WATER AND POWER

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                        Wednesday, March 2, 2011

                               __________

                            Serial No. 112-4

                               __________

       Printed for the use of the Committee on Natural Resources



  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                                   or
          Committee address: http://naturalresources.house.gov



                  U.S. GOVERNMENT PRINTING OFFICE
64-956                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="accbdcc3eccfd9dfd8c4c9c0dc82cfc3c182">[email&#160;protected]</a>  


                     COMMITTEE ON NATURAL RESOURCES

                       DOC HASTINGS, WA, Chairman
             EDWARD J. MARKEY, MA, Ranking Democrat Member

Don Young, AK                        Dale E. Kildee, MI
John J. Duncan, Jr., TN              Peter A. DeFazio, OR
Louie Gohmert, TX                    Eni F.H. Faleomavaega, AS
Rob Bishop, UT                       Frank Pallone, Jr., NJ
Doug Lamborn, CO                     Grace F. Napolitano, CA
Robert J. Wittman, VA                Rush D. Holt, NJ
Paul C. Broun, GA                    Raul M. Grijalva, AZ
John Fleming, LA                     Madeleine Z. Bordallo, GU
Mike Coffman, CO                     Jim Costa, CA
Tom McClintock, CA                   Dan Boren, OK
Glenn Thompson, PA                   Gregorio Kilili Camacho Sablan, 
Jeff Denham, CA                          CNMI
Dan Benishek, MI                     Martin Heinrich, NM
David Rivera, FL                     Ben Ray Lujan, NM
Jeff Duncan, SC                      Donna M. Christensen, VI
Scott R. Tipton, CO                  John P. Sarbanes, MD
Paul A. Gosar, AZ                    Betty Sutton, OH
Raul R. Labrador, ID                 Niki Tsongas, MA
Kristi L. Noem, SD                   Pedro R. Pierluisi, PR
Steve Southerland II, FL             John Garamendi, CA
Bill Flores, TX                      Colleen W. Hanabusa, HI
Andy Harris, MD
Jeffrey M. Landry, LA
Charles J. ``Chuck'' Fleischmann, 
    TN
Jon Runyan, NJ
Bill Johnson, OH

                       Todd Young, Chief of Staff
                      Lisa Pittman, Chief Counsel
                Jeffrey Duncan, Democrat Staff Director
                   Rick Healy, Democrat Chief Counsel
                                 ------                                

                    SUBCOMMITTEE ON WATER AND POWER

                      TOM McCLINTOCK, CA, Chairman
            GRACE F. NAPOLITANO, CA, Ranking Democrat Member

Louie Gohmert, TX                    Jim Costa, CA
Jeff Denham, CA                      Raul M. Grijalva, AZ
Scott R. Tipton, CO                  Ben Ray Lujan, NM
Paul A. Gosar, AZ                    John Garamendi, CA
Raul R. Labrador, ID                 Edward J. Markey, MA, ex officio
Kristi L. Noem, SD
Doc Hastings, WA, ex officio

                                 ------                                
                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Wednesday, March 2, 2011.........................     1

Statement of Members:
    Costa, Hon. Jim, a Representative in Congress from the State 
      of California..............................................    11
    Garamendi, Hon. John, a Representative in Congress from the 
      State of California........................................     9
    Lujan, Hon. Ben Ray, a Representative in Congress from the 
      State of New Mexico........................................     8
    McClintock, Hon. Tom, a Representative in Congress from the 
      State of California........................................     3
        Prepared statement of....................................     4
    Napolitano, Hon. Grace F., a Representative in Congress from 
      the State of California....................................     5
        Prepared statement of....................................     6
    Noem, Hon. Kristi L., a Representative in Congress from the 
      State of South Dakota......................................     9
    Tipton, Hon. Scott R., a Representative in Congress from the 
      State of Colorado..........................................     7

Statement of Witnesses:
    Connor, Hon. Michael L., Commissioner, U.S. Bureau of 
      Reclamation, U.S. Department of the Interior...............    12
        Prepared statement of....................................    14
    Werkheiser, William, Associate Director for Water, U.S. 
      Geological Survey, U.S. Department of the Interior.........    20
        Prepared statement of....................................    21



 OVERSIGHT HEARING TITLED ``EXAMINING THE SPENDING, PRIORITIES AND THE 
MISSIONS OF THE BUREAU OF RECLAMATION AND THE U.S. GEOLOGICAL SURVEY'S 
                       WATER RESOURCES PROGRAM.''

                              ----------                              


                        Wednesday, March 2, 2011

                     U.S. House of Representatives

                    Subcommittee on Water and Power

                     Committee on Natural Resources

                            Washington, D.C.

                              ----------                              

    The Subcommittee met, pursuant to call, at 10:02 a.m. in 
Room 1334, Longworth House Office Building, The Honorable Tom 
McClintock [Chairman of the Subcommittee] presiding.
    Present: Representatives McClintock, Gohmert, Denham, 
Tipton, Gosar, Labrador, Noem, Markey, Napolitano, Grijalva, 
Costa, Lujan, and Garamendi.
    Mr. McClintock. The Subcommittee on Water and Power will 
come to order. The Chair notes the presence of a quorum, which 
under Committee Rule 3[e] is two members.
    The Water and Power Subcommittee meets today to examine the 
spending priorities and the missions of the Bureau of 
Reclamation and the U.S. Geological Survey's Water Resources 
Program. We also meet under the mandate of House Resolution 72, 
to identify regulatory impediments to job creation.
    Today's hearing is the first one held by the Subcommittee 
in the 112th Congress. At the outset of each new Congress it is 
customary for the Chairman and the Ranking Minority Member to 
introduce their new members, whether they are here or not so I 
will start and then defer to the Subcommittee's Ranking 
Minority Member for her introductions.
    I am Tom McClintock. I have the pleasure of representing 
the 4th District of California, which is the headwaters area 
for the mighty Sacramento River. Prior to my service here in 
Congress, I served in the California State Legislature for 22 
years.
    The most senior Republican on the Subcommittee is 
Congressman Louie Gohmert, who represents the 1st District of 
Texas. Mr. Gohmert is in his fourth congressional term and 
served in the U.S. Army and was a District Judge in Smith 
County, Texas.
    Next is Congressman Jeff Denham, who represents the 19th 
District of California. Congressman Denham is an Air Force 
veteran, former California State Senator, and has worked 
extensively in agriculture.
    Next is Scott Tipton of Cortez, Colorado. Congressman 
Tipton is a small businessman and former Colorado State 
Representative.
    Dr. Paul Gosar is from Flagstaff, Arizona. He is a dentist 
and small businessman serving his first term.
    Congressman Raul Labrador from Eagle, Idaho, also serves on 
the Subcommittee. Congressman Labrador is a former member of 
the Idaho State Legislature and an attorney who ran his own law 
practice until being elected to Congress in this term.
    I am also pleased to welcome Congresswoman Kristi Noem of 
Hamlin County, South Dakota. Congresswoman Noem is a former 
member of the South Dakota House of Representatives and a small 
business owner who spent her life working in agriculture.
    And now I am pleased to recognize the Ranking Minority 
Member of the Subcommittee, former Chairwoman of the 
Subcommittee and my former colleague in the California 
Legislature, Congresswoman Grace Napolitano for the 
introduction of the Subcommittee's Minority Members.
    Mrs. Napolitano. Thank you, Mr. Chairman, and thank you for 
the opportunity to begin the first hearing in Congress on this 
Subcommittee. I have had the pleasure of serving on this 
Subcommittee, this is my thirteenth year and I, too, came from 
a State Assembly, but I also have city background as well as 
state background, and I am really happy to be here. I love this 
Subcommittee and look forward to working with you.
    My first introduction will be of Congressman Jim Costa, who 
is not present yet. He is a third generation farmer--born and 
raised in the San Joaquin Valley. He owns almond farms, and he 
also served in the State Assembly at the same time I did. Jim's 
knowledge of California water is very comprehensive. This is 
his fourth term on the Water and Power Subcommittee, and we 
welcome him.
    We also have Congressman Raul Grijalva from Arizona, a 
teacher, former Pima County Commissioner, and continues to be a 
member of the Subcommittee in this 112th Congress. He is 
serving as the Ranking Member for the National Parks, Forests 
and Public Lands Subcommittee.
    We have present Congressman Ben Lujan from Nambe, New 
Mexico. Ben was the Chair of the New Mexico Public Regulatory 
Commission, worked closely with the Subcommittee sponsoring two 
significant water settlements in the 111th Congress, and 
continues to work on critical water issues for the State of New 
Mexico, and we welcome him.
    And my last introduction is of a friend and a long-time 
California legislator, Congressman John Garamendi from 
California, former Lieutenant Governor, and former Insurance 
Commissioner. While this is his first time on the Subcommittee, 
he is no stranger to water in our jurisdiction. He also was the 
Deputy Secretary for the Department of the Interior in the 
Clinton Administration. We welcome all our Members, and with 
that I yield back.
    Mr. McClintock. Thank you.

STATEMENT OF HON. TOM McCLINTOCK, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Mr. McClintock. With today's hearing, the Water and Power 
Subcommittee will begin the process of restoring abundance as 
the principal objective of America's Federal water and power 
policy. We meet today to receive testimony from the Bureau of 
Reclamation and the U.S. Geological Survey on their plans for 
the coming year. As I said, we do so in conjunction not only 
with our responsibility under the Federal Budget Act to provide 
guidance to the House Budget Committee as it prepares its 2012 
budget, but also under our responsibility pursuant to House 
Resolution 72, to identify regulations and practices of the 
government that are impeding job creation and burdening 
economic growth.
    In my opinion, all of these hearings and all of the actions 
stemming from them must be focused on developing the vast water 
and hydroelectric resources in our nation. The failure of the 
last generation to keep pace with our water and power needs has 
caused chronic water shortages and sky rocketing electricity 
prices that are causing our economy serious harm. In addition, 
willful policies that have deliberately misallocated our 
resources must be reversed.
    California's Central Valley, where 200 billion gallons of 
water were deliberately diverted away from vital agriculture 
for the enjoyment and amusement of the two-inch Delta Smelt is 
a case in point. These water diversions have destroyed a 
quarter million acres of the most fertile farmland in America. 
They have thrown tens of thousands of farm families into 
unemployment, and have impacted fruit, vegetable, and nut 
prices in grocery stores across America. I will announce today 
that we will be holding a formal hearing on this matter in the 
Central Valley within the next 60 days.
    In Northern Arizona, 1,000 megawatts of hydroelectricity, 
enough to power roughly a million homes, has been sacrificed in 
the name of the humpback chub. In the Klamath, the government 
is seeking to destroy four perfectly good hydroelectric dams at 
the cost of more than a half billion dollars at a time when we 
can't guarantee enough electricity to keep refrigerators 
running in the summer. The rationale is to save the salmon, but 
the same proposal would close the Iron Gate Fish Hatchery that 
produces five million salmon smolt each year.
    Meanwhile, funds that ought to be going to water and power 
development are instead being squandered on subsidizing low-
flow toilets, salmon festivals, tiger salamander studies, and 
grants to private associations whose principal activity is to 
sue the Federal Government. We have also thrown hundreds of 
millions of taxpayer dollars into wildly expensive conservation 
programs that do little or nothing to develop new water and 
power resources. Well, those days are over. It is the objective 
of this Subcommittee to restore the original and as yet 
unfulfilled mission of the Bureau of Reclamation to develop and 
utilize our nation's vast water and hydroelectric resources to 
build a new era of abundance and prosperity for our nation. And 
I might add, also to complete the greening of the West, to tame 
the environmentally devastating cycle of floods and droughts, 
and to assure the perpetuation and propagation of all species 
through expansion of fish hatcheries and other cost-effective 
means.
    We will seek to inventory all of our potential water and 
power resources, establish and apply a uniform cost-benefit 
analysis to prioritize financing for those projects that 
produce the greatest benefits at the lowest costs, and restore 
the ``beneficiary pays'' doctrine that assures those who 
benefit from these projects pay for these projects, protecting 
general taxpayers of one community from being plundered for 
projects that exclusively benefit another.
    With these policies in place, we can fulfill the Bureau's 
original mission--to make the desert bloom and open a new era 
in America where water and power shortages and the policies 
that created them are a distant and unhappy memory.
    I also want to acknowledge the past work of the U.S. 
Geological Survey that has produced accurate and reliable data 
necessary for Sound resource policy and management. Today I 
will merely express the expectation that it will take stronger 
steps to resist efforts to politicize or compromise its work. I 
especially endorse Mr. Werkheiser's statement that ``the public 
deserves to know whether its investments are having tangible 
results.''
    I hope that this Administration will become a partner in 
this new era of abundance, rather than an obstacle. The 
rationing of shortages has never solved a shortage. Only a 
policy of abundance can do that. We have wasted not only money, 
but time, and we can afford to waste no more of either. With 
that, I will recognize the Ranking Minority Member, 
Congresswoman Napolitano, for five minutes.
    [The prepared statement of Chairman McClintock follows:]

         Statement of The Honorable Tom McClintock, Chairman, 
                    Subcommittee on Water and Power

    With today's hearing, the Water and Power Sub-Committee will begin 
the process of restoring abundance as the principal objective of 
America's Federal water and power policy. We meet today to receive 
testimony from the Bureau of Reclamation and the U.S. Geological 
Service on their plans for the coming year. We do so in conjunction 
with our responsibility under the Federal Budget Act to provide 
guidance to the House Budget Committee as it prepares the 2012 budget 
and with our responsibility under House Resolution 72 to identify 
regulations and practices of the government that are impeding job 
creation and burdening economic growth.
    In my opinion, all of these hearings and all of the actions 
stemming from them must be focused on developing the vast water and 
hydro-electric resources in our nation. The failure of the last 
generation to keep pace with our water and power needs has caused 
chronic water shortages and skyrocketing electricity prices that are 
causing serious economic harm.
    In addition, willful policies that have deliberately misallocated 
our resources must be reversed.
    California's Central Valley, where 200 billion gallons of water 
were deliberately diverted away from vital agriculture for the 
enjoyment and amusement of the 2-inch Delta Smelt is a case in point. 
These water diversions have destroyed a quarter million acres of the 
most fertile farmland in America, thrown tens of thousands of farm 
families into unemployment and impacted fruit, vegetable and nut prices 
in grocery stores across America.
    In Northern Arizona, 1,000 megawatts of hydroelectricity--enough to 
power a million homes--has been lost due to environmental mandates for 
the humpback chub.
    In the Klamath, the federal government is seeking to destroy four 
perfectly good hydroelectric dams at the cost of more than a half 
billion dollars at a time when we can't guarantee enough electricity to 
keep refrigerators running this summer. The rationale is to save the 
salmon, but the same proposal would close the Iron Gate Fish Hatchery 
that produces 5 million salmon smolt each year.
    Meanwhile, funds that ought to be going to water and power 
development are instead being squandered on subsidizing low-flow 
toilets, salmon festivals, tiger salamander studies and grants to 
private associations whose principal activity is to sue the federal 
government.
    We have also thrown hundreds of millions of taxpayer dollars into 
wildly expensive conservation programs that do little or nothing to 
develop new water and power resources.
    Those days are over.
    It is the objective of this sub-committee to restore the original--
and as yet unfulfilled--mission of the Bureau of Reclamation--to 
develop and utilize our nation's vast water and hydroelectric resources 
to build a new era of abundance and prosperity for our nation.
    And, I might add, to complete the greening of the west, to tame the 
environmentally devastating cycle of floods and droughts and to assure 
the perpetuation and propagation of all species through expansion of 
fish hatcheries and other cost-effective means.
    We will seek to inventory all of our potential water and power 
resources, establish and apply a uniform cost-benefit analysis to 
prioritize financing for those projects that produce the greatest 
benefits at the lowest costs, and to restore the ``beneficiary pays'' 
doctrine that assures those who benefit from these projects pay for 
these projects, protecting general taxpayers of one community from 
being plundered for projects that exclusively benefit another.
    With these policies in place, we can fulfill the Bureau's original 
mission, to make the desert bloom and to open a new era in America 
where water and power shortages--and the policies that created them--
are a distant memory.
    I also want to acknowledge the past work of the U.S. Geological 
Survey that produced accurate and reliable data necessary for sound 
resource policy and management. Today I will merely express the 
expectation that it will take stronger steps to resist efforts to 
politicize or compromise its work. I especially endorse Mr. 
Werkheiser's statement that ``the public deserves to know whether its 
investments are having tangible results.''
    I hope that this administration will become a partner in this new 
era of abundance rather than an obstacle. The rationing of shortages 
has never solved a shortage--only a policy of abundance can do that. We 
have wasted not only money but time, and we can afford to waste no more 
of either.
                                 ______
                                 

    STATEMENT OF HON. GRACE NAPOLITANO, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mrs. Napolitano. Thank you, Mr. Chair, and my warm welcome 
to both Commissioner Connor and Mr. Werkheiser. Thank you both 
for coming before us once more. Your budget request reflects 
the very different aspects of Reclamation's mission: Tribal 
water rights settlements, non-tribal settlements like San 
Joaquin, operation and maintenance costs, as well as 
environmental restoration projects, which many of the farmers 
agree is essential for their delivery of fresh water.
    Reclamation's budget requests have one thing in common. 
These actions keep the water running, allow for power 
production, and provide water certainty for all the communities 
involved. Many of them have voiced their opinions about how 
they feel and where and when they need the help. Reclamation's 
budget request allows Reclamation to meet its core mission. 
There are other things I would love to see the Bureau do and, 
hopefully in the future as the budgets are allocated, we may be 
able to increase certain aspects, such as youth hiring and 
other areas that are really critical to the job development.
    Reclamation, like other agencies, has had to adjust to the 
economic environment, but has also found a way to do more with 
less, and part of that is a Title XVI program that has become 
very--I don't just say popular--essential to meeting real water 
production in the West--by doing more with less by funding 
programs that leverage the Federal investment through an 
extremely robust, non-Federal cost share. These examples 
include the San Joaquin Restoration Fund where farmers have 
paid tens of millions to the settlement fund, WaterSMART Grants 
that are a 50/50 cost share, and the Title XVI Water Recycling 
Programs: 1 Federal dollar is leveraged for every 3 local 
dollars for each authorization (25% Federal to 75% non-
Federal).
    We must also look at the possibility of being able to 
assure loan guarantees for some of those smaller entities that 
are unable because of their budgets or because of their size to 
move forward with the projects that are essential to the well-
being of those communities.
    If we are really talking about doing more with less, the 
Title XVI Water Recycling Program is a perfect example of the 
program that does more with less. More water, more jobs. What 
good is it to save the money if we don't have water for jobs? 
Jobs are essential, but water is economy.
    Ongoing concerns, of course, are major and one of those 
major ones is aging infrastructure. We have not even assessed 
where we are with providing for many of the areas that we have 
only put money into developing, and the O&M has been fairly 
sufficient. But the aging of that infrastructure is going to 
cost us more money than we are prepared for right now--the 
rehabilitation of decades-old facilities.
    USGS is also experiencing drastic cuts to their groundwater 
program. How is this going to affect our groundwater 
management? I am thoroughly familiar with Landsat 8, and I am 
certainly hopeful that this is going to continue, this valuable 
tool for all of the entities involved. Also, providing our 
water managers with the baseline data they need to combat 
climate change is crucial and what this means for our future 
water supplies. We cannot expect Mother Nature to comply with 
anything and everything we have in mind, so we must be prepared 
to ensure that we can meet some of those challenges and prepare 
our entities to ensure that they too can provide for their 
members, for their end users, if you will.
    We are also looking at ways to finance--again through 
public/private partnerships. We have been discussing them in 
Transportation. There is no reason why we cannot begin looking 
at formulating those public/private partnerships within our 
water areas. Water knows no political affiliation. It must be a 
nonpartisan issue. Water is economy. Water is essential to the 
well-being of our communities, and we must work together to be 
able to reach those areas of assistance to those that cannot.
    We look forward to working with you, Mr. Chair, and yield 
back the balance of my time.
    [The prepared statement of Mrs. Napolitano follows:]

  Statement of The Honorable Grace F. Napolitano, a Representative in 
                 Congress from the State of California

    Good Morning. Welcome Commissioner Connor and Mr. Werkheiser from 
USGS.
    Today's budget request reflects the very different aspects of 
Reclamation's mission: Tribal water rights settlements, non-tribal 
settlements like San Joaquin, operation and maintenance costs, as well 
as environmental restoration projects. The Bureau of Reclamation's 
budget requests and priorities have one thing in common: these actions 
keep the water running, allow for power production, and provide water 
certainty for all the communities involved. In short, Reclamation's 
budget requests allow Reclamation to meet its core mission.
    Reclamation like other agencies has had to adjust to the economic 
environment but also found a way to of doing more with less. They are 
doing more with less by funding programs that leverage the federal 
investment through an extremely robust non federal cost share.
    Examples of this include San Joaquin Restoration Fund, where 
farmers have paid tens of millions to the settlement fund, WaterSMART 
Grants that are 50/50 at a Cost Share, and the Title XVI Water 
Recycling Programs: $1 federal dollar is leveraged to every $3 local 
dollars for each authorization (25% Federal to 75% non-federal).
    If we are really talking about doing more with less, the Title XVI 
water recycling program is a perfect example of a program that does 
``more with less.'' More Water, More Jobs. What good is it to save 
money if we don't have water for jobs?
    We still have some ongoing concerns that we still must address. 
This includes finding a solution for our aging infrastructure, and the 
rehabilitation of decades old facilities. The USGS has also experienced 
drastic cuts to their groundwater program. How does this affect our 
groundwater management?
    Are we providing our water managers with the baseline data they 
need to combat climate change and what does this mean for our future 
water supplies? And finally, are we also looking at other ways of 
financing, through public/private partnerships?
    Water knows no political affiliation and I look forward to working 
with colleagues on both sides of the aisle in finding solutions to our 
water problems.
                                 ______
                                 
    Mr. McClintock. Thank you. It is customary on the 
Subcommittee to recognize any other Members who wish to make 
opening statements to do so. In keeping with the Natural 
Resource Committee precedent, I will recognize Members present 
when the Committee comes to order in order of seniority 
followed by order of arrival, alternating between the Majority 
and the Minority, and I understand Mr. Tipton has an opening 
statement.

 STATEMENT OF HON. SCOTT TIPTON, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF COLORADO

    Mr. Tipton. Thank you, Chairman McClintock, for convening 
today's hearing, and I would like to join my colleagues in 
welcoming our panelists as we examine the budget and priorities 
of the Bureau of Reclamation and the U.S. Geological Survey's 
Water Resources Program.
    I come from the headwaters state, Colorado. Our population 
is expected to nearly double by 2050, and much of this growth 
will take place in my district on the western slope of 
Colorado. It is estimated that some areas in my district will 
see growth rates as high as 240 percent. Increasing water 
storage will play an important role in meeting the additional 
water needs brought on by this population increase. We can 
never underestimate the importance of water in all of our 
lives. In Colorado, we refer to it as our life blood for 
farmers and ranch communities for the development of our 
communities as well and proud to be able to serve on this 
Committee, and I look forward to hearing your testimony.
    I yield back, Mr. Chairman. Thank you.
    Mr. McClintock. Are there Members of the Minority, Mr. 
Lujan first?
    Mrs. Napolitano. Yes, Mr. Lujan.

STATEMENT OF HON. BEN LUJAN, A REPRESENTATIVE IN CONGRESS FROM 
                    THE STATE OF NEW MEXICO

    Mr. Lujan. Thank you, Mr. Chairman and Ranking Member 
Napolitano. Mr. Chairman, thank you for convening this hearing 
today so that we can talk about the important work that the 
Bureau of Reclamation and U.S. Geological Survey do to develop 
and operate our water infrastructure across the country. I 
would like to thank Commissioner Connor and Associate Director 
Werkheiser for making themselves available for questions about 
the proposed budget for 2012.
    I would like to point out the importance of the Bureau of 
Reclamation to our country, and especially in the West where I 
come from. In the West, our water resources are precious and 
the Bureau of Reclamation helps us, especially in New Mexico, 
to ensure our water is used efficiently, that water is 
available for irrigation, the infrastructure like dams, water 
pipeline and reliable electric power is made available to the 
public and, as we know with the Navajo Nation, the simplicity 
of having water to drink.
    This infrastructure strengthen the backbone of America by 
making resources available for economies to grow while helping 
to preserve vital resources like water in a place where it is 
scarce. More specifically, I would like to highlight some 
projects within the proposed budget that are crucial for water 
certainty and economic development in my district: the Animas-
La Plata Project, which is scheduled to be completed by 2013 in 
fulfillment of the Colorado Settlement Act of 2000; the Middle 
Rio Grande project to continue operation and maintenance of 
project facilities and flood protection; dam safety funding, 
which includes El Vado Dam in the northern part of my district; 
the Jicarilla Apache Rural Water Project; and funding for three 
Native American water rights settlements that will bring water 
certainty to thousands of New Mexicans.
    These are just a few of many critical projects throughout 
the West and without funding for these critical 
infrastructures, especially in rural New Mexico and across 
rural America, economic development, water resource 
infrastructure, and flood protection would be virtually 
nonexistent for the people of New Mexico.
    In addition, I would like to highlight the critical nature 
of funding for three Native American water settlements that 
were passed as part of the Claims Resolution Act in the 111th 
Congress and what they mean to the people of New Mexico. Before 
these settlements were agreed to, the dispute over water in 
these cases was locked into litigation for over 35 years--in 
some instance over 45 years. Realizing the cost and uncertainty 
of continued litigation, both the Indian and non-Indian 
parties, including the State of New Mexico, came to the table 
and agreed that resolving the conflict through water 
settlements was a mutually beneficial way of resolving disputes 
for water rights. The new Indian Water Rights Settlement 
Account is crucial to funding Federal obligations to tribal 
communities for water infrastructure, commitments by the State 
of New Mexico through the State Engineer, and the Bureau of 
Reclamation. They all play a big part in making the settlement 
happen. It is essential to maintain support for these important 
projects.
    With that, Mr. Chairman, I thank you. I yield back my time 
and look forward to the questions.
    Mr. McClintock. I understand Congresswoman Noem has an 
opening statement.

  STATEMENT OF HON. KRISTI NOEM, A REPRESENTATIVE IN CONGRESS 
                 FROM THE STATE OF SOUTH DAKOTA

    Ms. Noem. Thank you, Mr. Chairman, and I want to thank Mr. 
Connor and Mr. Werkheiser for testifying today as well, and I 
have a special guest I would like to introduce as well. I have 
my daughter, Kennedy Noem, who is with me all this week, so she 
is sitting behind me so I want to thank you for allowing me the 
time to introduce her.
    You know, I wasn't around in the early 1900s when Congress 
established Reclamation to provide water and power and ag 
irrigation to help settle the West, but as a native South 
Dakotan, I have seen how critical infrastructure such as rural 
water projects can benefit and develop rural communities. Many 
of these projects bring much needed economic development to 
rural areas and Indian tribes in my home state. There are many 
projects that help spur the economy and create jobs across the 
United States.
    But while looking at Reclamation spending history, I have 
been appalled to see thousands of dollars of grants go toward 
studying things such as the California adult tiger salamander, 
a golf course irrigation study, or a high efficiency toilet 
rebate system while we have real projects that have gone on and 
were started years ago but haven't been funded. So those are 
some of the things that I am very concerned about and I am 
looking forward to hearing your priorities for funding and for 
projects into the future, so thank you for coming.
    Mr. McClintock. Mr. Garamendi.
    Mr. Garamendi. I believe my colleague Mr. Costa has 
seniority, and if he would like to----
    Mr. McClintock. As I explained, the custom of the Natural 
Resources Committee is to introduce Members based upon their 
seniority at time of arrival when the gavel falls followed by 
order of arrival thereafter.
    Mr. Garamendi. Then I will proceed. Sorry, Jim.
    Mr. Costa. No, I am always willing to defer to the 
gentleman from Northern California.
    Mr. Garamendi. Well, we are saving the best for last, OK?
    Mr. Costa. Makes no matter.

STATEMENT OF HON. JOHN GARAMENDI, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Mr. Garamendi. I want to welcome our witnesses. I have had 
the pleasure of working with them in the past, and they are 
outstanding gentlemen and on top of their game for either the 
research side of it or the implementation side. I look forward 
to their testimony.
    I also thank the Chairman for very clearly defining what he 
intends to accomplish as Chairman of this Subcommittee and what 
we can look forward to over the next 18 months as this 
Subcommittee proceeds to presumably create an era of abundance 
at a time with significant climate uncertainty as to what is 
happening.
    The challenge before us is how to meet the multiple goals 
that every society should have. Obviously we need water. Life 
doesn't exist, at least on this planet, without it except in 
some very strange places, but we need water. We also need 
balance, and the agenda that has been laid out to us by the 
Chairman is one that is not balanced. It is one that would, in 
fact, lead to destruction of very, very important economic 
activities and very, very important ecological and activities 
that we must pay attention to because in fact we live in a 
complex world that is dependent not only upon abundant water, 
but also upon the other attributes and the nature around us.
    If we ignore, for example, the fact that in the California 
Delta there has been a dramatic decline, in fact a collapse of 
the fisheries. It is not enough to say that we should take more 
water from the Delta and not worry about that. I suppose we 
could say that if we were not worried about the tens of 
thousands of families that are dependent upon the fisheries in 
the Delta upon the aquatic habitat there, and upon those who 
take water from the Delta, not necessarily through the pumps.
    Indeed, the agricultural valley is important, but most of 
the unemployment in the agriculture valley has to do with the 
collapse not of water but of housing. The west side is an area 
in which farms have fallowed some acreage, no doubt about it, 
but that west side is also the area that has had the last--the 
shortest straw. We are going to have to balance this.
    With regard to the Klamath, OK, let us fight about the 
Klamath. We fought with the Klamath for more than 40 years. An 
accord has been reached, and what the Chairman is suggesting is 
that we throw that accord aside and start the fighting once 
more. That seems to be not the way to go. We are going to have 
to find balance here. If we are going to achieve abundance, it 
is going to have to be done in a balanced way. If it is not a 
balanced way, it isn't going to work for a variety of reasons. 
It is not just the Endangered Species Act.
    It is the fact that the communities in the West understand 
that we have to have balance. It is not just water, and it is 
not just water enough to willy nilly waste and let it go 
wherever it may go down the drain, but there is a balance that 
has to be achieved.
    A lot of hoo-haaing about toilets, let me give you an 
example of toilets. Mona Lake has literally been saved by 
changing out the toilets in the City of Los Angeles. Instead of 
five gallons, two-three-gallon toilets, every single toilet in 
the City of Los Angeles was changed out, replaced, and the 
result Mona Lake has been saved. We can achieve a balance, and 
I would urge this Committee to look to balance in all we do.
    A one-sided solution isn't going to work. We have proved 
that over the last century as the Bureau of Reclamation for 
more than 75 percent of its time did not think about balance. 
Now it is, and there is more that we can and will do to provide 
water where and when it may be necessary. So, Mr. Chairman, I 
look forward to engaging with you.
    Mr. McClintock. Next is Mr. Costa.

STATEMENT OF HON. JIM COSTA, A REPRESENTATIVE IN CONGRESS FROM 
                    THE STATE OF CALIFORNIA

    Mr. Costa. Thank you very much, Mr. Chairman, for holding 
this timely hearing on the President's budget with the Bureau 
of Reclamation and the Geological Survey as well. I want to 
apologize to the non-Californians who are part of this 
Subcommittee. You will hear a lot about California water. Bear 
with us. This is nothing new. Mark Twain, I think, got it right 
when he was a reporter in California at the Mariposa Gazette 
over 100 years ago when he observed that in the West whiskey 
was made for drinking and water was made for fighting. We have 
been fighting over these water resources for some time now.
    I would like to focus most of my comments in my opening 
statement, as well as when we get to the question rounds, Mr. 
Connor, on, as another speaker once noted, Tip O'Neill, all 
politics are local, and while the Ranking Member indicated 
water should not be political, unfortunately we have noted, 
especially in the last two years, that it has become very 
political, and I think that there are a lot of efforts and 
issues that we have been engaged in that I want to bear with me 
this morning as it relates to one--the allocation of water 
among the--especially in light of the additional snow pack that 
we have received this year. We have most of the areas both 
Federal and now the state service contractors that are near 100 
percent are 100 percent of their allocation, yet we have the 
San Luis unit at 50 percent of its allocation. You have 
demonstrated administrative flexibility, which we urged you to 
over a year ago and, as a result, we did receive 50 percent 
last year. I think we can do better this year. We need to 
engage on that.
    I want to talk to you about the efforts with regard to the 
San Joaquin River Settlement Agreement, 18 years of contentious 
litigation. We are now implementing it, but I think there are 
some real problems in terms of the phases of implementation 
that we need to set back and pause as it relates to whether or 
not we are going to be successful in this program. I don't 
think we have the resources there although in the budget you 
have added some more dollars, and that is helpful in what is a 
cutback generally speaking on many of your budget priorities as 
I have looked through it in the last day or so.
    Then the third issue I want to discuss with you is the Bay-
Delta Conservation Plan, which I think is essential if we are 
going to solve for the non-Californians here some of these 
contentious fights that we have been dealing with for decades. 
California is a growing state still, 38 million people. By the 
year 2030 we are estimated to have 50 million people. We have a 
water system in the state that is designed for about 20 million 
people, and while we engage or try to use all the water tools 
in our water toolbox, it is obvious still that some of the 
solutions are in conflict and some of the solutions are yet to 
be realized.
    And so the Bureau plays a key role in this area, in all 
three of these areas, and we need your continued effort and 
involvement.
    Let me close by saying that, as we get to the question 
areas and those areas that I want to visit, Mr. Connor, that I 
think this year is a pivot year. With the additional snow pack 
and rainfall, we have made progress. $54 million was allocated 
last year for projects. The Inner Tie project is under 
construction. We have been able for two years to have a waiver 
on transfers that have been very critical. The Delta, as Mr. 
Garamendi has indicated, still needs support, but there are 
numerous factors, I will contend, that have contributed to the 
decline of the Delta, not simply the export of water south. And 
the fact is that we are one state, every region of the state 
does need and deserve a stable supply of water, and therein 
lies the challenge.
    So, I thank you, Mr. Chairman, for opening this hearing and 
I look forward to engaging with Mr. Connor as he works on the 
details of the California aspects. For the non-Californians, 
again I apologize in advance, but these are issues that are 
critical to our state's long-term survivability. Thank you.
    Mr. McClintock. Thank you. If there are no other opening 
statements, we will move to the witnesses. We are pleased to be 
joined by The Honorable Michael Connor, Commissioner of the 
Bureau of Reclamation for the Department of the Interior, and 
by Mr. William Werkheiser, Associate Director for Water for the 
U.S. Geological Survey of the Department of the Interior.
    Your written testimony, gentlemen, will appear in full in 
the hearing record so I ask that you keep your oral statement 
to five minutes as outlined in our invitation letter to you and 
under Committee Rule 4[a]. I also want to explain how our 
timing lights work.
    When you begin to speak our clerk will start the timer. The 
green light will appear. After four minutes the yellow light 
will appear, and at that time you should begin to conclude your 
statement. At five minutes the red light will come on. You may 
complete your sentence, but at that time I would ask you to 
draw to a conclusion.
    Now I will recognize Commissioner Connor to testify for 
five minutes, and all witness statements will be submitted for 
the hearing record.

   STATEMENT OF HON. MIKE L. CONNOR, COMMISSIONER, BUREAU OF 
          RECLAMATION, U.S. DEPARTMENT OF THE INTERIOR

    Mr. Connor. Thank you, Mr. Chairman, Ranking Member 
Napolitano, and Members of the Subcommittee for the opportunity 
to discuss Reclamation's Fiscal Year 2012 budget. I am a New 
Mexican. I feel like I am becoming a Californian, even though I 
am a Westerner, I will talk very quickly here. Also, 
congratulations, Mr. Chairman, in your new role with the 
Subcommittee. With me today is Bob Wolf, our Director of 
Program and Budget.
    The Fiscal Year 2012 discretionary request for Reclamation 
is $1 billion. I have submitted written testimony, which 
presents a detailed summary of the request. Overall, the budget 
reflects a comprehensive set of actions and initiatives that 
support Reclamation's mission. The budget continues to 
emphasize working smarter to address the water needs of a 
growing population in an environmentally responsible and cost-
efficient manner and assisting states, tribes, and local 
entities in solving contemporary water resource challenges.
    Certainty and sustainability are primary goals with respect 
to the use of water resources, and requires Reclamation to take 
action on many fronts and our budget proposal was developed 
with that principle in mind. The Fiscal Year 2012 budget 
request for Reclamation focuses on six priorities. Very 
briefly, I will use my remaining time to discuss each of those 
items.
    Infrastructure. Overall, our budget continues to support 
the need to maintain our infrastructure in safe operating 
condition while addressing the myriad of challenges facing 
western water users. Approximately 51 percent of our water and 
related resources budget, $407 million, is dedicated to 
operation, maintenance, and rehabilitation activity, with 49 
percent allocated to resource management and development. These 
activities under Operations, Maintenance and Rehabilitation 
include the dam safety program at $84 million; our site 
security program at $26 million; and RAX, which is a shorthand 
for Replacements, Additions and Extraordinary Maintenance, $41 
million in this budget.
    WaterSMART. This is the second priority for Reclamation and 
the WaterSMART Program combines with Interior's establishment 
of a high priority performance goal, which is to enable the 
capability to increase available water supplies for 
agricultural, municipal, industrial, and environmental needs in 
the western United States by 490,000 acre-feet by the end of 
2012. That is the goal.
    This goal in the program concentrates on expanding and 
stretching limited water supplies in the West to reduce 
conflict, facilitate solutions to complex water issues, and 
meet the growing needs of expanding municipalities, the 
environment and agriculture. Reclamation proposed to fund 
WaterSMART at $59 million, $11 million below the 2011 levels 
when compared with those programs that we included in last 
year's WaterSMART request.
    The three ongoing programs include the WaterSMART Grant 
Program at $18.5 million, Basin Studies at $6 million and the 
Title XVI Water Reclamation Reuse Program at $29 million. Two 
other programs have been added this year. One is not a new 
program, our Water Conservation Field Services Program at $5.1 
million, and we have a new operative Watershed Management 
Program that we look at having a demo project for in 2012 at 
the tune of $250,000.
    WaterSMART is a joint effort with the USGS, as will also be 
described by Mr. Werkheiser.
    Ecosystem restoration. In order to meet Reclamation's 
mission goals of producing power and delivering water in a 
sustainable manner, we must continue to focus on the protection 
and restoration of the aquatic and riparian environments 
affected by our operations. Ecosystem restoration involves a 
large number of activities, including endangered species 
recovery programs which are required in order to continue to 
operate our projects, and which I directly address the 
environmental aspects of Reclamation's mission.
    The 2012 request provides for $155 million for operating, 
managing, and improving California' Central Valley project. A 
significant amount of CVP funding supports ecosystem 
restoration, including $35 million for the Red Bluff Pumping 
Plant and fish screen in the Sacramento River. We also have 
$10.5 million for the Trinity River Restoration Program, with 
an additional $3 million available through the CVP restoration 
fund. Trinity program activity includes development of a 
comprehensive monitoring and adaptive management program for 
fishery restoration and construction of channel rehabilitation 
projects at very sites along the Trinity River.
    Ecosystem restoration includes $26 million for the Lower 
Colorado River operations to fulfill the Secretary's role as 
water master and also implement the multi-species conservation 
program. $18.3 million is requested for that program. The 
budget also requests $20 million for other Endangered Species 
Act programs, including $11 million to implement the Platt 
River Endangered Species Recovery Implementation Program, $6.2 
million for the Upper Colorado and San Juan Endangered Fish 
Recovery Programs, and additionally we have an $18 million 
request for the Columbia Snake River recovery programs. Those 
funds will be used to implement the biological opinion 
governing our operations on the Snake River and the Columbia 
River.
    We also have funding provided in the Klamath project line 
item, with the Middle Rio Grande project line item, all to 
address environmental and ecosystem restoration needs without 
those accounts.
    I see my time is rapidly running out. The other priority 
areas which I will quickly summarize are cooperative landscape 
conservation and renewable energy. We have a youth employment 
initiative, which we are carrying out through our normal 
programs, and supporting tribal nations is a high priority for 
Secretary Salazar as it is for the Bureau of Reclamation.
    Mr. Chairman, thank you for allowing me to testify on our 
budget request for 2012, and I stand ready to answers questions 
at the appropriate time.
    [The prepared statement of Mr. Connor follows:]

             Statement of Michael L. Connor, Commissioner, 
      U.S. Bureau of Reclamation, U.S. Department of the Interior

    Thank you, Mr. Chairman, Ranking Member Napolitano and members of 
the subcommittee, for the opportunity to discuss with you the 
President's Fiscal Year 2012 budget request for the Bureau of 
Reclamation. With me today is Bob Wolf, Director of Program and Budget.
    I appreciate the time and consideration this subcommittee gives to 
reviewing and understanding Reclamation's budget and its support for 
the program. Reclamation works hard to prioritize and define our 
program in a manner that serves the best interest of the public.
    Our FY 2012 request continues support for activities that, both now 
and in the future, will deliver water and generate hydropower, 
consistent with applicable State and Federal law, in an environmentally 
responsible and cost-effective manner. Overall, our goal is to promote 
certainty, sustainability, and resiliency for those who use and rely on 
water resources in the West. Success in this approach will help ensure 
that Reclamation is doing its part to support the basic needs of 
communities, as well as providing for economic growth in the 
agricultural, industrial, and recreational sectors of the economy. In 
keeping with the President's pledge to freeze spending and focus on 
deficit reduction, this budget reflects reductions and savings where 
possible. Although the 2012 budget request allows Reclamation to 
fulfill its core mission, essential functions have been trimmed and 
economized wherever possible.
    The budget continues to emphasize working smarter to address the 
water needs of a growing population and assisting States, Tribes, and 
local entities in solving contemporary water resource challenges. It 
also emphasizes the operation and maintenance of Reclamation facilities 
in a safe, efficient, economic, and reliable manner; assuring systems 
and safety measures are in place to protect the public and Reclamation 
facilities. Funding for each program area down to the individual 
projects within Reclamation's request is based upon adherence to 
Administration, Departmental, and Reclamation priorities. Reclamation 
is responsible for the oversight, operation, and maintenance of major 
federal infrastructure that is valued at $87.7 billion in current 
dollars. Key areas of focus for FY 2012 include Water Conservation, 
Landscape Conservation Cooperatives and Renewable Energy, Ecosystem 
Restoration, Youth Employment, supporting Tribal Nations and 
maintaining infrastructure. Recognizing the budget challenges facing 
the Federal Government as a whole, Reclamation will continue its 
efforts to partner with other Federal agencies such as the U.S. Army 
Corps of Engineers (USACE), Department of Energy (DOE), and the Natural 
Resources Conservation Service, to maximize the efficiency by which we 
implement our programs.
    Reclamation's 2012 budget request is $1.0 billion, which includes 
$53.1 million for the Central Valley Project Restoration Fund (CVPRF). 
This request is offset by discretionary receipts in the CVPRF, 
estimated to be $52.8 million. The request for permanent appropriations 
in 2012 totals $194.5 million. Overall, Reclamation's 2012 budget is a 
responsible one and consistent with the Administration's goal of fiscal 
sustainability. Reclamation will still be making strategic investments 
that provide a strong foundation to meet water resources challenges 
across the West.

Water and Related Resources
    The 2012 budget request for Water and Related Resources, 
Reclamation's principal operating account, is $805.2 million, a 
decrease of $108.4 million from the 2011 request.
    The request includes a total of $398.5 million for water and 
energy, land, and fish and wildlife resource management and development 
activities. Funding in these activities provides for planning, 
construction, water conservation activities, management of Reclamation 
lands including recreation, and actions to address the impacts of 
Reclamation projects on fish and wildlife.
    The request also provides a total of $406.7 million for water and 
power facility operations, maintenance, and rehabilitation activities. 
Reclamation emphasizes safe, efficient, economic and reliable operation 
of facilities, ensuring systems and safety measures are in place to 
protect the facilities and the public. Providing the funding needed to 
achieve these objectives continues to be one of Reclamation's highest 
priorities.

Highlights of the FY 2012 Request for Water and Related Resources
    I would like to share with the Committee several highlights of the 
Reclamation budget including an update on the WaterSMART (Sustain and 
Manage America's Resources for Tomorrow) Program and Interior's 
establishment of a Priority Goal target to enable capability to 
increase available water supply for agricultural, municipal, industrial 
and environmental uses in the western United States by 490,000 acre-
feet by the end of 2012.
    WaterSMART Program -- The request focuses resources on the 
Department of the Interior's WaterSMART program. The program 
concentrates on expanding and stretching limited water supplies in the 
West to reduce conflict, facilitate solutions to complex water issues, 
and to meet the growing needs of expanding municipalities, the 
environment, and agriculture.
    Reclamation proposes to fund WaterSMART at $58.9 million, $11.0 
million below 2011 levels when considering only the programs included 
that year. The three ongoing WaterSMART programs include: the 
WaterSMART Grant program funded at $18.5 million; Basin Studies funded 
at $6.0 million; and the Title XVI Water Reclamation and Reuse program 
funded at $29.0 million. Two programs are being added to WaterSMART in 
2012, the continuing Water Conservation Field Services program, funded 
at $5.1 million, and participation by Reclamation in the Cooperative 
Watershed Management program, funded at $250,000. This is a joint 
effort with the USGS. The USGS will use $10.9 million, an increase of 
$9.0 million, for a multi-year, nationwide water availability and use 
assessment program. Other significant programs and highlights include:
    Ecosystem Restoration-- In order to meet Reclamation's mission 
goals of securing America's energy resources and managing water in a 
sustainable manner for the 21st century, a part of its programs must 
focus on the protection and restoration of the aquatic and riparian 
environments affected by its operations. Ecosystem restoration involves 
a large number of activities, including Reclamation's Endangered 
Species Act recovery programs, which are required in order to continue 
project operations and directly address the environmental aspects of 
the Reclamation mission.
    The 2012 request provides $154.6 million for operating, managing 
and improving California's Central Valley Project (CVP). This amount 
supports Ecosystem Restoration including $34.8 million for the Red 
Bluff Pumping Plant and Fish Screen within the CVP, Sacramento River 
Division, which will be constructed to facilitate passage for 
threatened fish species, as well as providing water deliveries. The 
funding for the CVP also includes $10.5 million for the Trinity River 
Restoration program and $3.0 million from the CVP Restoration Fund 
which includes development of a comprehensive monitoring and adaptive 
management program for fishery restoration and construction of channel 
rehabilitation projects at various sites along the Trinity River.
    The request includes $26.0 million for Lower Colorado River 
Operations to fulfill the role of the Secretary as water master for the 
Lower Colorado River and implementation of the Lower Colorado River 
Multi-Species Conservation (MSCP) program which provides long-term 
Endangered Species Act compliance for the operations. Of this amount, 
$18.3 million for the MSCP program will provide quality habitat to 
conserve populations of 26 species.
    The budget requests $20.0 million for other Endangered Species Act 
Recovery Implementation programs, including $11.0 million in the Great 
Plains Region to implement the Platte River Endangered Species Recovery 
Implementation program. It also includes $6.2 million for the Upper 
Colorado and San Juan River Endangered Fish Recovery programs. This 
funding will continue construction of a system that automates canal 
operations to conserve water by matching river diversions with actual 
consumptive use demands and redirecting the conserved water to improve 
instream flows. Additionally, the Columbia/Snake River Salmon Recovery 
program funding of $17.8 million will be used for implementation of 
required Biological Opinion actions including extensive hydro actions, 
plus tributary habitat and hatchery initiatives.
    The 2012 budget includes $18.6 million for the Klamath project, 
which supports studies and initiatives to improve water supplies to 
meet the competing demands of agricultural, tribal, wildlife refuge, 
and environmental needs in the Klamath River Basin.
    No funding is requested for the Klamath Dam Removal and 
Sedimentation Studies. These studies are being completed with funds 
previously appropriated and will be used to inform a Secretarial 
Determination in 2012 as to whether removing PacifiCorp's four dams on 
the Lower Klamath River is in the public interest and advances 
restoration of the Klamath River fisheries. The studies and Secretarial 
Determination are being carried out pursuant to an agreement with 
PacifiCorp and the states of California and Oregon.
    The 2012 budget includes $23.6 million for the Middle Rio Grande 
project. Funds support the acquisition of supplemental non-federal 
water for Endangered Species Act efforts and low flow conveyance 
channel pumping into the Rio Grande during the irrigation season. 
Further, funding is used for recurring life cycle river maintenance 
necessary to ensure uninterrupted, efficient water delivery to Elephant 
Butte Reservoir, reduced risk of flooding, as well as delivery 
obligations to Mexico.
    The Yakima River Basin Water Enhancement Project request is $8.9 
million, which will continue funding grants to the Benton and Roza 
Irrigation Districts and Sunnyside Division Board of Control, to 
implement conservation measures and monitor the effects of those 
measures on the river diversions.
    Cooperative Landscape Conservation and Renewable Energy--
Reclamation is actively engaged in developing and implementing 
approaches to understand, and effectively adapt to, the risks and 
impacts of climate change on western water management. The Basin 
Studies Program is part of Interior's integrated strategy to respond to 
climate change impacts on the resources managed by the Department, and 
is a key component of the WaterSMART Program. In 2012, the Basin 
Studies Program will continue West-wide risk assessments focusing on 
the threats to water supplies from climate change and other factors and 
will be coordinated through the Department's Landscape Conservation 
Cooperatives (LCCs). Reclamation will take the lead responsibility for 
establishing and coordinating work at the Desert and Southern Rockies 
LCCs. Included within Reclamation's Science and Technology program is 
water resources research targeting improved capability for managing 
water resources under multiple drivers affecting water availability, 
including climate change. This research agenda will be collaborated and 
leveraged with capabilities of the Interior Climate Science Centers.
    Reclamation is also working in partnership with DOE and COE in 
identifying opportunities to address the President's clean energy goals 
through the development of new sustainable hydropower capacity as well 
as integrating renewable energy in our operations. The partnership with 
DOE and its Power Marketing Administrations will also assess climate 
change impacts on hydropower generation.
    Supporting Tribal Nations - Reclamation has a long-standing 
commitment to realizing the Secretary's goal to strengthen tribal 
nations. FY 2012 continues support through a number of Reclamation 
projects ranging from endangered species restoration to rural water and 
implementation of water rights settlement actions.
    The request includes $12.8 million for the Animas-La Plata project 
to continue constructing components of the Navajo Nation Municipal 
Pipeline and filling Lake Nighthorse as the project nears completion.
    The 2012 Reclamation budget requests $35.5 million for on-going 
authorized rural water projects. The projects that benefit tribal 
nations include Mni Wiconi, the rural water component of the Garrison 
Diversion Unit, Fort Peck Reservation/Dry Prairie, Jicarilla Apache 
Reservation, and Rocky Boys/North Central Montana. One other rural 
water project that does not directly affect Tribes is the Lewis and 
Clark Project. Funding for the Perkins County Project is complete. The 
first priority for funding rural water projects is the required O&M 
component, which is $15.3 million for FY 2012. For the construction 
component, Reclamation allocated funding based on objective criteria 
that gave priority to projects nearest to completion and projects that 
serve on-reservation needs.
    The request includes $7.0 million for the Native American Affairs 
program to provide technical support for Indian water rights 
settlements and to assist tribal governments to develop, manage and 
protect their water and related resources. The Columbia/Snake River 
Salmon Recovery, Klamath, Central Valley Project Trinity River 
Restoration, Yakima and Yakima River Basin Water Enhancement Projects 
mentioned above under Ecosystem Restoration benefit tribal nations. 
Also, the newly established Indian Water Rights Settlement Account 
discussed below supports tribal nations.
    Youth Employment - To meet the Secretary's challenge to achieve the 
Priority Goal for youth employment, Reclamation is working hard to 
engage, educate and employ our nation's youth in order to help develop 
the future stewards of our lands. Secretary Salazar challenged the 
Interior Bureaus to increase employment of youth between the ages of 15 
and 25 in natural and cultural resource positions. Last year, 
Reclamation began working with youth conservation corps to hire youth 
and expose them to the great work that it does. We continue to use all 
hiring authorities available to bring young people in through 
internships, crew work, and full time positions.
    Aging Infrastructure - Through Reclamation's continued emphasis on 
preventive maintenance and regular condition assessments (field 
inspections and reviews), the service life of many Reclamation assets 
and facilities have been extended, thereby delaying the need for 
significant replacements and rehabilitation efforts, including the 
related funding needs. Although Reclamation and its project 
beneficiaries have benefited greatly from this preventive maintenance, 
we recognize that as assets and facilities age, they require an 
increased amount of maintenance. Sometimes this requires more frequent 
preventive maintenance, and, in other situations, significant 
extraordinary maintenance, rehabilitations, or replacements may be 
required.
    It is important to note that much of the operation and maintenance 
(O&M) funding responsibilities of Reclamation's assets lies with our 
project beneficiaries and those operating entities that operate and 
maintain federally owned transferred works. For some operating entities 
and project beneficiaries, rehabilitation and replacement needs may 
exceed available resources. In particular, many smaller irrigation or 
water conservancy districts are unable to fund these needs in the year 
incurred absent long-term financing assistance. To address this issue, 
the Administration is currently exploring strategies for helping these 
entities to rehabilitate these facilities. We are also exploring 
potential utilization of the authority provided under P.L. 111-11 that 
would allow extended repayment of extraordinary (non-routine) 
maintenance costs on project facilities. Water users are currently 
required by Federal reclamation law to pay these costs, which are often 
substantial, in advance.
    Reclamation's FY 2012 proposed budget is $40.8 million in 
appropriations for various projects for Replacements, Additions, and 
Extraordinary Maintenance (RAX) activities where Reclamation is 
directly responsible for daily O&M. This request is central to mission 
objectives of operating and maintaining projects to ensure delivery of 
water and power benefits. Reclamation's RAX request is part of its 
overall Asset Management Strategy that relies on condition assessments, 
condition/performance metrics, technological research and deployment, 
and strategic collaboration to continue to improve the management of 
its assets and deal with its aging infrastructure challenges. This 
amount represents only the FY 2012 request for discretionary 
appropriations. Additional RAX items are directly funded by revenues, 
customers, or other federal agencies.
    The Bonneville Power Administration will continue to provide up-
front financing of power operation and maintenance and for major 
replacements and additions for the power plants at the Boise, Columbia 
Basin, Hungry Horse, Minidoka, Rogue River, and Yakima projects. In the 
Great Plains (GP) Region, Reclamation, Western Area Power 
Administration, and the U.S. Army Corps of Engineers have entered into 
an agreement which enables the customers to voluntarily direct fund 
power RAX items. A long-term funding agreement with the customers for 
the Parker-Davis Project on the Colorado River was executed in FY 1999. 
FY 2012 costs of operation, maintenance and replacement for this 
project will be 100 percent up-front funded by the customers. To date, 
the Central Valley Project power O&M program is funded 100 percent by 
the customers, in addition to funding selected RAX items. Reclamation 
will continue to explore ways to reduce the Federal cost of its 
projects and programs.
    A total of $83.7 million is requested for Reclamation's Safety of 
Dams program, which includes $63.6 million directed to dam safety 
corrective actions; of that, $27.5 million is for work at Folsom Dam. 
Funding also includes $18.5 million for safety evaluations of existing 
dams and $1.6 million to oversee the Interior Department's Safety of 
Dams program.
    Reclamation's request for Site Security is $25.9 million to ensure 
the safety and security of the public, Reclamation's employees, and key 
facilities. This funding includes $6.9 million for physical security 
upgrades at high risk critical assets and $19.1 million to continue all 
aspects of bureauwide security efforts including law enforcement, risk 
and threat analysis, personnel security, information security, risk 
assessments and security-related studies, and guards and patrols.
    Reclamation continues efforts to reach agreements with non-Federal 
and Federal partners to share in the cost of water resource management 
and development. Cost-sharing of 50 percent for construction and 
rehabilitation of recreation facilities at various Reclamation 
reservoirs will continue. Additionally, Reclamation's current planning 
program seeks 50 percent cost-sharing on most studies. This reflects 
Reclamation's emphasis on partnerships for water management 
initiatives.

Indian Water Rights Settlements
    On December 8, 2010 the President signed the Claims Resolution Act 
of 2010 that included four water settlements. These settlements resolve 
longstanding and disruptive water disputes, provide for the 
quantification and protection of tribal rights, and will deliver clean 
water to the Pueblos of Taos, Nambe, Pojoaque, San Ildefonso, and 
Tesuque in New Mexico, the Crow Tribe of Montana, and the White 
Mountain Apache Tribe of Arizona. In order to accomplish this, the Act 
provides various mechanisms and funding structures designed for both 
construction and for the tribes to use to manage water systems 
following construction. The primary responsibility for developing water 
infrastructure under these settlements was given to Reclamation. 
Mandatory funding was provided to both BIA and Reclamation in 2011 for 
a portion of the funds established under the Act. We anticipate that 
Reclamation will begin expending some of this mandatory funding to work 
with all parties to begin implementing these settlements.
    The four Indian water rights settlements will provide water 
supplies and offer economic security for the tribes and pueblos 
described above. The agreements will build and improve reservation 
water systems, rehabilitate irrigation projects, construct a regional 
multi-pueblo water system, and codify water-sharing arrangements 
between Indian and neighboring communities. Construction will take 
place over time and annual funding requirements will vary from year to 
year. Notwithstanding the availability of some level of mandatory 
funding, discretionary appropriations will still be necessary. 
Reclamation is requesting $26.7 million in 2012 for the initial 
implementation of these four settlements.
    Reclamation is establishing the Indian Water Rights Settlements 
account to assure continuity in the construction of the authorized 
projects and to highlight and enhance transparency in handling these 
funds. In establishing this account, Reclamation will also request 
$24.8 million for the Navajo-Gallup Water Supply project (Title X of 
Public Law 111-11) in order to have major current funding for 
Reclamation's Indian Water Rights Settlements treated in the Claims 
Resolution Act in a single account.
    The Navajo-Gallup Water Supply Project will provide reliable and 
sustainable municipal, industrial, and domestic water supplies from the 
San Juan River to the Navajo Nation including the Window Rock, AZ area; 
the city of Gallup, NM; the Navajo Agricultural Products Industry; and 
the southwest portion of the Jicarilla Apache Nation Reservation.
    The total request for Reclamation for Indian Water Rights 
Settlements in 2012 is $51.5 million in discretionary funding and $60.0 
million in permanent funds.

Policy and Administration
    The 2012 budget request for the Policy and Administration 
appropriation account, the account that finances Reclamation's central 
management functions, is $60.0 million or 6% of the total request, a 
reduction of $1.2 million from the 2011 request. This reduction 
reflects the impact of the pay freeze and the Administrative Cost 
Savings discussed below.

Administrative Cost Savings and Management Efficiencies
    The 2012 budget request includes reductions that reflect the 
Accountable Government Initiative to curb non-essential administrative 
spending in support of the President's commitment on fiscal discipline 
and spending restraint. In accordance with this initiative, 
Reclamation's budget includes $5.8 million in savings in 2012 against 
actual 2010 expenditures in the following activities: travel and 
transportation of persons, transportation of things, printing and 
reproduction, and supplies and materials. Actions to address the 
Accountable Government Initiative and reduce these expenses build upon 
management efficiency efforts proposed in 2011 totaling $3.9 million in 
travel and relocation, Information Technology, and strategic sourcing 
and bureau-specific efficiencies totaling $1.3 million.

Central Valley Project Restoration Fund
    The 2012 budget includes a request of $53.1 million for the CVPRF. 
This budget request is offset by collections estimated at $52.8 million 
from mitigation and restoration charges authorized by the Central 
Valley Project Improvement Act. The request considers the effects of 
the San Joaquin River Restoration Settlement Act (P.L. 111-11, March 
30, 2009) which (beginning in 2010) redirects certain fees, estimated 
at $5.6 million in FY 2012, collected from the Friant Division water 
users to the San Joaquin River Restoration Fund.

San Joaquin River Restoration Fund
    The 2012 budget also reflects the settlement of Natural Resources 
Defense Council v. Rodgers. Reclamation proposes $9.0 million in 
discretionary funds into this account, which was established by the San 
Joaquin River Restoration Settlement Act. Under the Settlement, the 
legislation also provides for approximately $2 million in annual 
appropriations for the Central Valley Project Restoration Fund for this 
purpose, as well as mandatory funds. The Fund seeks to provide a 
variety of physical improvements within and near the San Joaquin River 
within the service area of the Friant Division long term contractors to 
achieve the restoration and water management goals. These funds are 
important fopr Reclamation to meet various terms of the settlement that 
brought water contractors, fishery advocates, and other stakeholders 
together to bring to an end 18 years of contentious litigation.

California Bay-Delta Restoration Fund
    The 2012 budget requests $39.7 million for CALFED, pursuant to the 
CALFED Bay-Delta Authorization Act. The request focuses on the Bay-
Delta Conservation Plan and interagency science efforts to address 
short- and long-term water resource issues. Other activities include 
funds for water use efficiency, water quality, storage, ecosystem 
restoration, and planning and management activities. The CALFED Bay-
Delta Program was established in May 1995 to develop a comprehensive 
long-term plan to address the complex and interrelated problems in the 
Delta region, tributary watersheds, and delivery areas. The Program's 
focus is on conserving and restoring the health of the ecosystem and 
improving water management, including Federal participation in the Bay 
Delta conservation Plan

FY 2012 Planned Activities
    Reclamation's FY 2012 goals are directly related to fulfilling 
contractual requests to deliver water and power. Our goals also address 
a range of other water supply needs in the West, playing a significant 
role in restoring and protecting freshwater ecosystems consistent with 
applicable State and Federal law, enhancing management of our water 
infrastructure while mitigating for any harmful environmental effects, 
and understanding and responding to the changing nature of the West's 
limited water resources. It should be emphasized that in order to meet 
Reclamation's mission goals of securing America's energy resources and 
managing water in a sustainable manner for the 21st century, a part of 
the Bureau's programs must focus on the protection and restoration of 
freshwater ecosystems.
    By the end of FY 2012, Reclamation will enable capability to 
increase available water supply for agricultural, municipal, 
industrial, and environmental uses in the western United States by 
490,000 acre feet through its conservation-related programs, such as 
water reuse and recycling (Title XVI), and WaterSMART grants. 
Reclamation will maintain dams and associated facilities in good 
condition to ensure the reliable delivery of water. It will maximize 
the percent of time that its hydroelectric generating units are 
available to the inter-connected Western electrical system during daily 
peak demand periods.
    Moreover, the FY 2012 budget request demonstrates Reclamation's 
commitment to meeting the water and power needs of the West in a 
fiscally responsible manner. This budget continues Reclamation's 
emphasis on managing those valuable public resources. Reclamation is 
committed to working with its customers, States, Tribes, and other 
stakeholders to find ways to balance and provide for the mix of water 
resource needs in 2012 and beyond.

Conclusion
    Mr. Chairman, please allow me to express my sincere appreciation 
for the continued support that this Subcommittee has provided 
Reclamation. This completes my statement. I would be happy to answer 
any questions that you may have at this time.
                                 ______
                                 
    Mr. McClintock. Thank you very much, Commissioner. Now I 
will recognize Mr. Werkheiser to testify for five minutes.

  STATEMENT OF MR. WILLIAM WERKHEISER, ASSOCIATE DIRECTOR FOR 
 WATER, U.S. GEOLOGICAL SURVEY, U.S. DEPARTMENT OF THE INTERIOR

    Mr. Werkheiser. Good morning, Mr. Chairman, and Members of 
the Subcommittee. Thank you for the opportunity to appear 
before you today to discuss the Administration's 2012 budget 
request for the U.S. Geological Survey.
    The request for the USGS is $1.1 billion, an increase of 
$6.1 million from the 2010 enacted level. The request for water 
resources totals $199.6 million. This represents a reduction of 
$21.6 million from the 2010 enacted level. Natural resource 
managers, natural hazard responders, industry, and the public 
continue to rely on the important science data and information 
that the USGS produces as part of its core mission to provide 
the scientific basis that contributes to the wise management of 
the nation's natural resources and promotes the health, safety, 
and well-being of its people.
    In the last year, USGS science has been at the forefront in 
responding to many natural resource and natural hazards 
challenges. For example, the USGS recently made available 
instant customized updates about the water conditions through 
its ``WaterAlert'' system. This service allows users to receive 
updates about river flows, groundwater levels, water 
temperatures, rainfall, and water quality at more than 9,500 
sites nationwide.
    Real-time water data are essential to those making daily 
decisions about water-related activities whether for resource 
management business operations, flood response or recreation. 
WaterAlert furthers USGS's efforts to make data immediately 
available and relevant to every user. The 2012 budget provides 
$10.9 million for USGS activities in the WaterSMART initiative. 
This is $9 million above the 2010 enacted level.
    Under this initiative, USGS will conduct comprehensive 
water supply and demand inventories to provide the baseline 
information needed by public and private water managers to work 
toward sustainable water supplies. This effort will include 
estimating freshwater resources across the nation, assessing 
water use and distribution for human and environmental and 
wildlife needs, and evaluating factors affecting water 
availability, including energy development, changes in 
agricultural practices, increase in population, and competing 
proprieties for limited water resources.
    To address the President's priority on fiscal 
responsibility, the USGS 2012 budget makes vital investments in 
research and development and ecosystems restoration while also 
proposing to make difficult reductions within a number of 
programs. Those programs include: regional assessments of 
groundwater quantity and quality; toxic substance research; the 
Water Resources Research Act Program; and the National Water 
Quality Assessment Program. In addition, it increases our 
proposed two-year, Interior-wide management efficiencies and 
administrative savings and travel, contracts, supplies, and 
information technologies.
    These changes reflect tough and difficulty choices and we 
are repositioning core responsibilities to better address the 
complex societal issues within a reduced funding level.
    The USGS 2012 budget request includes establishment of a 
separate treasury account for Landsat missions along with an 
increase of $48 million to develop Landsats 9 and 10. Landsat 
furthers Interior's important role in land remote sensing under 
the President's National Space Policy, and provides invaluable 
data for land use and climate change research. Landsat has 
become vital to the nation's agricultural water management, 
disaster response in scientific communities.
    The 2012 budget reflects our ability to address a broad 
array of natural resource and natural science issues facing the 
nation. The challenges ahead are great, but the USGS is 
committed to placing our science data and information into the 
hands of decisionmakers across the landscape when they need it 
and in formats that they can really use.
    The 2012 budget request aims to ensure our scientific 
expertise is applied effectively, efficiently, and 
strategically to meet the nation's most pressing needs today 
and to preserve our wealth of biologic, geologic, geographic 
and hydrologic monitoring capabilities to meet the needs of 
tomorrow.
    The USGS will continue its legacy of providing the data, 
long-term scientific understanding, and scientific tools needed 
to sustain and improve the economic and environmental health of 
people in communities across the Nation and around the world.
    This concludes my statement, Mr. Chairman. I will be happy 
to answer the questions that you and other Members have. I 
appreciate this opportunity to testify before you and the 
Subcommittee and look forward to our continued collaboration.
    [The prepared statement of Mr. Werkheiser follows:]

      Statement of William Werkheiser, Associate Director, Water, 
        U.S. Geological Survey, U.S.. Department of the Interior

    Good morning, Mr. Chairman and Members of the Subcommittee. Thank 
you for the opportunity to appear before you today to discuss the 
Administration's 2012 budget request for the U.S. Geological Survey 
(USGS).
    Much about the USGS has changed in the year since we last sat 
together in this room to discuss funding for the important work the 
USGS does for the Nation. The USGS has realigned its management 
structure, moving from an organizational structure of single and 
separated disciplines to form interdisciplinary mission areas as 
outlined in the USGS Science Strategy: ``Facing Tomorrow's Challenges--
U.S. Geological Survey Science in the Decade 2007-2017'' (U.S. 
Geological Survey, 2007). I appreciate the Subcommittee's support for 
the realignment. The 2012 USGS budget request formally aligns the USGS 
budget structure with the new mission area management structure. We are 
already seeing evidence that bringing expertise from several Earth 
science disciplines together through these mission areas to address 
issues of concern allows the USGS to better respond to customer and 
partner needs to provide the best value to the taxpayers.
    While much has changed at USGS, some things have not. Natural 
resources managers, natural hazards responders, industry, and the 
public continue to rely on the important science, data, and information 
the USGS produces as part of its core mission to provide the scientific 
basis that contributes to the wise management of the Nation's natural 
resources and that promotes the health, safety, and well-being of 
people. Given the rapid pace required for management and policy 
decisions in comparison to the more deliberative time scale for 
authoritative, peer reviewed science, the USGS must always anticipate 
the Nation's needs and maintain a broad portfolio of research and 
researchers across the country. The last year has provided numerous 
examples of how USGS science is providing relevant and timely 
scientific results to address some of the most pressing natural 
resources challenges of our time.
    In the last year, USGS science has been at the forefront in 
responding to many natural resource challenges. The USGS recently 
released the first ever detailed inventory of rare earth elements 
describing known deposits for the entire Nation. These elements are 
essential components for many current and emerging alternative energy 
technologies, such as electric vehicles, photo-voltaic cells, energy-
efficient lighting, and wind power. The assessment will be very 
important both to policy-makers and to industry, and it reinforces the 
value of our efforts to maintain accurate, independent information on 
our Nation's natural resources as only the USGS can do.
    USGS hazards science made great strides as well. In the aftermath 
of the January 2010 Haiti earthquake, USGS scientists used geological 
field observations and interpretations of satellite imagery, aerial 
photography, and light detection and ranging (LiDAR) to discover the 
main strand of the Enriquillo-Plantain Garden Fault thought to be 
responsible for the January quake had not ruptured and the hazard 
associated with the fault still remains high. Information of this 
nature is critical as Haiti continues its struggle to recover from the 
impacts of the devastating earthquake and make important decisions on 
rebuilding its capital city.
    The USGS continues its efforts to put science, data, and 
information into the hands of those who need it for decision making. In 
recent months, the USGS announced that estimated economic loss and 
casualty information will now be included in USGS earthquake alerts 
following significant earthquakes around the world. These earthquake 
alerts are widely recognized and used by emergency responders, 
government and aid officials, and the public to understand the scope of 
the potential disaster and to develop the best response. The USGS 
automated system, PAGER (Prompt Assessment of Global Earthquakes for 
Response), within minutes provides preliminary estimates of earthquake 
impacts, including the range of possible fatalities and economic 
losses, by assessing the shaking distribution, the number of people and 
settlements exposed to severe shaking and other factors. This 
information is critical in determining the human and economic toll so 
that emergency responders can act promptly and effectively.
    The USGS recently made available instant, customized updates about 
water conditions through its ``WaterAlert'' system. This system allows 
users to receive updates about river flows, groundwater levels, water 
temperatures, rainfall and water quality at more than 9,500 sites where 
the USGS collects real-time water information. This information is 
crucial for managing water resources, including during floods, droughts 
and chemical spills. Real-time water data are essential to those making 
daily decisions about water-related activities, whether for resource 
management, business operations, flood response or recreation. 
WaterAlert furthers USGS efforts to make data immediately available and 
relevant to every user.
    USGS long-term monitoring and robust ecosystem studies continue to 
pay dividends as our Nation seeks to discover whether investments in 
ecosystem restoration are working. One example is a recent study that 
determined the Potomac River in Washington, D.C., is showing multiple 
benefits from restoration efforts. According to direct measurements 
taken during the 18-year field study, reduced nutrients and improved 
water clarity have increased the abundance and diversity of submerged 
aquatic vegetation in the Potomac. The public deserves to know whether 
its investments are having tangible results. This study and others like 
it provide that information.
    It is the hard-working scientific and professional staff at the 
USGS, powered by this Subcommittee's long-term investment in and 
commitment to science, that makes these advancements possible. The 
success of USGS efforts, such as those highlighted here, makes it all 
the more challenging to make tough decisions regarding the allocation 
of scarce fiscal resources.
    To address the President's priority on fiscal responsibility, the 
USGS 2012 budget makes vital investments in research and development 
and ecosystem restoration, while also proposing reductions within 
programs such as regional assessments of groundwater quantity and 
quality; toxic substances research; mineral resource assessments; 
research and grants that address the Nation's resilience to natural 
hazards; the Water Resources Research Act program; the National 
Biological Information Infrastructure; the National Water Quality 
Assessment Program; the National Geological and Geophysical Data 
Preservation program; the National Cooperative Geological Mapping 
program; research to establish the limits of the extended Outer 
Continental Shelf; and the climate effects network. These changes 
reflect tough choices, not just the reduction of low-performing or 
unnecessary programs. We are repositioning core responsibilities to 
better address complex multidisciplinary issues within a reduced 
funding level.
    The 2012 budget request for the USGS is $1.1 billion, an increase 
of $6.1 million from the 2010 enacted level. In 2012, the USGS is 
proposing to establish a new appropriations account, National Land 
Imaging (NLI), which comprises a base transfer from the Surveys, 
Investigations and Research (SIR) account of $53.5 million coupled with 
an increase of $48.0 million to begin work on Landsats 9 and 10. 
Excluding the NLI account, the SIR account is $53.6 million below the 
2010 enacted level. Decreases are proposed in scientific programs as 
well as for Interior-wide management efficiencies and administrative 
savings in travel, contracts, supplies, and information technology.

Major Changes
    The USGS 2012 budget request includes establishment of a separate 
account for Landsat missions along with an increase of $48.0 million to 
begin developing an operational Landsat program, starting with Landsats 
9 and 10. Landsat furthers Interior's important role in land remote 
sensing under the President's National Space Policy and provides 
invaluable data for land use and climate change research. The new 
account will include funding for current satellites (Landsats 5 and 7), 
the Landsat Data Continuity Mission (Landsat 8), which is scheduled to 
launch in December 2012, and the development of Landsats 9 and 10, 
through a continuous Landsat program that will ensure data continuity 
in the future. Landsat has become vital to the Nation's agricultural, 
water management, disaster response, and scientific communities. 
Establishment of this account and the increase in funding will provide 
the stable budgetary foundation needed for a continuous capability. A 
permanent budgetary and managerial structure will ensure the continued 
collection and maintenance of the important data the Landsat satellite 
series provides.
    The budget request also proposes an additional $12.0 million for 
the restoration of some of the Nation's most iconic ecosystems. These 
efforts support America's Great Outdoors, the President's signature 
conservation initiative to protect and restore the health, heritage, 
natural resources and social and economic value of some of the Nation's 
most significant ecosystems. The USGS plays a vital role in the 
development and implementation of the America's Great Outdoors 
initiative, working in collaboration with other Interior bureaus and 
Federal agencies. Particular focus is given to important and iconic 
ecosystems, with targeted increases for Chesapeake Bay (+$4.6 million), 
Columbia River (+$1.4 million), Upper Mississippi River (+$1.0 million) 
and Puget Sound (+$1.5 million). The budget includes $3.5 million for 
the Great Lakes, including support for USGS' role in the Asian Carp 
Control Framework, to detect and understand this invasive fish and 
develop chemical control tools.
    Funding to complete the network of Interior Climate Science 
Centers, as called for in Secretarial Order 3289, is also included at 
$11.0 million above the 2010 enacted level. The planned network of 
eight Interior Climate Science Centers will provide fundamental 
research and tools to the network of landscape conservation 
cooperatives and to natural and cultural resource managers. The Centers 
focus on understanding landscape stressors related to climate change 
and designing adaptation strategies at a regional level. In 2010, CSCs 
were established in the Northwest, Southeast and Alaska Regions. At the 
proposed funding level, the remaining CSCs will be established in the 
Northeast, South Central, North Central, Southwest and Pacific Islands 
regions.
    To continue investment in science to support Interior's substantial 
coastal and ocean resource management responsibilities and its critical 
role in implementing the Administration's National Ocean Policy, the 
budget request includes an additional $4.5 million for coastal and 
marine spatial planning. The USGS will continue leading the development 
of a national information management system for coastal, ocean and 
Great Lakes resources. This involves conducting a number of efforts 
important in managing resources with other Federal, State, tribal, and 
regional partners. Efforts include constructing a prototype Coastal and 
Marine Spatial Planning Internet portal for the Gulf of Mexico; 
developing modeling tools to forecast coastal vulnerability to 
projected sea level rise and predicted coastal storms; and establishing 
data standards and undertaking gap analysis to target future priority 
data collection activities.

Budget Summary by Budget Activity
    The 2012 budget includes a total of $166.4 million for the 
Ecosystems mission area. The request includes increases to the 
Terrestrial, Freshwater, and Marine Environments and Invasive species 
programs to support the President's signature conservation initiative, 
America's Great Outdoors.
    The Climate and Land Use Change budget activity request totals 
$106.4 million and includes new funding for completion of the Interior 
Climate Science Centers and funding for new efforts associated with 
carbon sequestration in the California Bay-Delta.
    The 2012 total request for Energy, Minerals, and Environmental 
Health is $88.5 million, which reflects a $13.0 million reduction from 
the 2010 enacted level.
    The total requested funding level for Natural Hazards in 2012 is 
$133.9 million or $5.1 million below the 2010 enacted level.
    In 2012, the request level for Water Resources totals $199.6 
million. This represents a reduction of $21.6 million from the 2010 
enacted level.
    The 2012 total budget request for Core Science Systems is $105.9 
million, a reduction of $19.0 million below the 2010 enacted level.
    The total funding level for Administration and Enterprise 
Information is requested at $116.5 million and reflects a net program 
increase of $1.4 million.
    The 2012 total budget request for Facilities is $100.8 million; a 
reduction of $5.6 million below the 2010 enacted level.

Conclusion
    The USGS 2012 budget request addresses issues long important to the 
Administration and Interior, and aligns the USGS budget structure with 
its management structure. This budget reflects our ability to address a 
broad array of natural-resource and natural-science issues facing the 
Nation. It also reflects tough choices and difficult decisions. The 
challenges ahead are great, but the USGS is committed to placing our 
science, data, and information into the hands of decision makers across 
the landscape when they need it and in formats they can readily use. 
The 2012 budget request aims to ensure our multidisciplinary science 
expertise is applied effectively, efficiently, and strategically to 
meet the Nation's most pressing needs today and to preserve our wealth 
of biologic, geologic, geographic, and hydrologic monitoring 
capabilities to meet the needs of tomorrow. The USGS will continue its 
legacy of providing the data, long-term scientific understanding, and 
scientific tools needed to sustain and improve the economic and 
environmental health and prosperity of people and communities across 
the Nation and around the world.
    This concludes my statement, Mr. Chairman. I will be happy to 
answer the questions you and other Members have. I appreciate this 
opportunity to testify before you and this Subcommittee and look 
forward to our continued collaboration.
                                 ______
                                 
    Mr. McClintock. Thank you very much for appearing today. At 
this point we will begin questions of the witnesses. To allow 
our Members to participate and to be sure that we can hear from 
all of our witnesses today, Members will be limited to five 
minutes for their questions. However, if Members have 
additional questions we can have more than one round of 
questioning, or Members can submit their statements for the 
hearing record. After the Ranking Member and I pose our 
questions, we will then recognize Members alternately in the 
same order as of the beginning of each panel question so those 
who were here when the questioning begins in order of 
seniority, followed by those who arrive after the questioning 
begins.
    So, I will begin with my questions of Commissioner Connor. 
Commissioner, what is the Bureau's estimate of total additional 
water and hydroelectric resources that will be needed over the 
next 20 years to support the growing population, and 
agricultural and industry needs?
    Mr. Connor. I don't know that we have done a West-wide 
assessment of projecting out in the future given population 
growth and changes in the economy structures and changes 
between municipal and industrial needs and agricultural needs, 
what those long-term----
    Mr. McClintock. Our responsibility is to meet those needs. 
Wouldn't that be a handy thing to have as an idea over the next 
20 years of what those needs are?
    Mr. Connor. Well, our goal at Reclamation is to operate our 
projects in as efficient a manner as possible to carry out that 
mission as well as looking forward and addressing the 
challenges that are before us. We are doing that in conjunction 
with a lot of other agencies, including USGS, or doing a water 
census and looking to project how these are changing over time, 
and what those ongoing needs will entail. So I envision as part 
of WaterSMART we will start to get some of the answers to some 
of those questions.
    Mr. McClintock. I think it would be helpful to get as 
comprehensive answer to that question as we can so we know 
where we have to be within 20 years, and without knowing that 
we don't have much of an idea of how to get there.
    Mr. Connor. I absolutely agree.
    Mr. McClintock. What is the Bureau's inventory of 
additional water and hydroelectric resources that can be 
developed?
    Mr. Connor. With respect to hydropower resources, we are 
engaged in an ongoing review of our facilities and looking for 
opportunities to identify for interaction with the private 
sector about where we could look to new development 
opportunities. We have done a Phase 1 Hydropower Assessment 
that we released the draft of last fall, which we are 
finalizing within the next week. That identified approximately 
65 sites with the capacity of about 209 megawatts of potential 
capacity that----
    Mr. McClintock. I am sorry. How many megawatts?
    Mr. Connor. Two hundred and nine megawatts of potential 
capacity. That is for new units at existing facilities. We are 
also looking at opportunities for low head hydropower. We have 
already done some assessments. We are envisioning finalizing a 
draft report out this fall that identify opportunities to----
    Mr. McClintock. What about potential resources? For 
example, the Auburn Dam alone is 800 megawatts of additional 
generating capacity.
    Mr. Connor. With respect to those type of facilities that 
are not yet in place, we have not done an assessment of 
opportunities out West.
    Mr. McClintock. So we don't know what the total resources 
are for hydroelectricity. How about for water?
    Mr. Connor. For water, we have a number of specific ongoing 
studies that exist with respect to potential storage 
opportunities. We have also assessed what our opportunities 
given our existing budget conditions to create new water 
supplies through efficiency operations and conservation areas. 
That is the 490,000 acre-feet goal that I mentioned. With 
respect to storage studies----
    Mr. McClintock. Well, look at just the Auburn Dam capacity 
is 2.3 million acre-feet, so obviously again we don't seem to 
have a comprehensive picture of what we need or how much we 
have available to us that we could possibly develop.
    Mr. Connor. We are not surveying every site out there in 
the West for water storage opportunities, that is correct.
    Mr. McClintock. So obviously you don't have a plan to apply 
those undeveloped resources to meet our needs over the next 
generation.
    Mr. Connor. We have a plan to use our resources to create 
new water supplies but not a comprehensive scale across the 
West.
    Mr. McClintock. Well, over the last 20 years the population 
in the West has increased about 40 percent. How much has our 
water supply increased?
    Mr. Connor. I don't know the answer to that question.
    Mr. McClintock. How much has our hydroelectricity capacity 
increased?
    Mr. Connor. Overall, I don't have an answer to that 
question either. I know that certain----
    Mr. McClintock. It is fundamental to the mission of the 
Bureau of Reclamation. I would hope that you can get 
information to us at some point in the very near future.
    Mr. Connor. Well, to assess those resources thoroughly we 
would need to be able to conduct feasibility studies of all the 
opportunities out there. Congress took that authority away from 
us many years ago, decades ago. So we can do appraisal 
analysis. We do a lot of those studies with our partners in 
looking at opportunities that they see at the local level, but 
you are correct, we do not have a comprehensive West-wide 
program to do feasibility assessments of all opportunities for 
water and power development.
    Mr. McClintock. Thank you. Ms. Napolitano.
    Mrs. Napolitano. Thank you, Mr. Chairman, and my first 
question would be to Commissioner Connor.
    What would happen in the Klamath Basin if the restoration 
agreement and the settlement agreement were not authorized nor 
implemented?
    Mr. Connor. If the agreements that have been struck in the 
Klamath Basin do not move forward, right now it is hard to say, 
but there is an opportunity right now for a long-term 
resolution of the conflict and issues that exist in the Klamath 
Basin. Right now we are doing an assessment, a secretarial 
determination on assessing the public interest and the 
opportunity to revise the fishery through the removal of the 
four dams.
    We are not undertaking that study and analysis on our own 
accord. It is by an agreement by the owner of that dam, a 
private owner of that dam, PacifiCorp, who has looked forward 
with different constituencies and stakeholders in the Klamath 
Basin and recognize that there is a history of conflict, there 
is an ongoing limitation to the hydropower generation capacity 
in those dams because of that, because of limited water supply, 
because of environmental issues, and right now those dams, the 
licenses have expired under FERC, and they have to engage in a 
re-licensing process under the Federal Power Act.
    The reality of that re-licensing process is if they go 
through that, that they are looking at as a minimum, according 
to PacifiCorp, at a minimum of $400 million of capital cost 
associated with retrofitting those dams with fish passage and 
other requirements. They are looking at increased operation and 
maintenance costs, and PacifiCorp has made the determination 
through its filings with the California Public Utility 
Commission and the Oregon Public Utility Commission that the 
rate payers are going to pay a substantially higher rate in the 
future if those dams stay in place and the re-licensing 
processes has to go forward.
    So, the first step is analyzing the value and the benefits 
and the costs of removing those dams, and that, if the 
determination would be made to move forward and do that, that 
has the potential for saving the rate payers on the electricity 
site lots of money, and that is well documented in the filings 
before the public utility commissions in those decision. That 
is the energy side.
    On the environmental side we have ongoing conflicts because 
of the competing endangered species' needs in the Upper Klamath 
Lake and in the Klamath River with the salmon species. Those 
ongoing conflicts create impacts to the agricultural water 
supply that we have available for the Klamath project. I should 
note that those constituency, the irrigation districts, the 
Klamath Basin Water Users Association are very strongly 
supportive of moving forward with the hydropower settlement 
agreement and the Klamath Basin restoration agreement because 
it will provide long-term certainty. Improving the overall 
environment will improve the ability to provide water for 
agriculture.
    Last, there are three tribes in the basin, four tribes that 
exist in the basin who have an invested interest in fishery 
resources as do non-Indian communities also. This is a good 
chance to create access, depending on how the determination 
would come up, to 300 miles of additional habitat in the 
Klamath Basin and a great opportunity to restore the fisheries, 
which has interest to the tribes, according to their treaty 
rights, as well as economic opportunities for people in the 
basin.
    So, we have an ongoing history of conflict. We have 
additional costs that will be incurred. If everything stays the 
status quo, we will have more uncertainty, whereas if the 
status quo changes in the Klamath Basin the hope would be that 
the conflict that is involved in that basin for so long will be 
gone, that there will be more certainty for water users, for 
the fishery, and that overall power costs will be held in 
check.
    Mrs. Napolitano. Thank you for the long answer, but that 
answers my question.
    Mr. Werkheiser, does the Fiscal Year 2012 budget request 
provide adequate funding for data collection and scientific 
research to inform Water Resource Management given the threats 
of climate change to our water supplies? And I am very, very 
keying in on Landsat 8, and some of the information that has 
come back to us; in fact, how valuable it has been for the 
ability to forecast in some areas.
    Mr. Werkheiser. That is right. As far as data collection 
for water management purposes, recognizing the difficult budget 
environment we are in, we try to preserve those critical data 
collection activities on a nationwide basis. So, we have tried 
to preserve those, especially those things. We would like our 
national stream flow information program, and the cooperative 
water program where much of the data collection activity takes 
place, so we have tried to preserve those as much as we could.
    We look to Landsat, there is supposed to be Landsat 8, to 
help inform us in the data collection activity.
    Mrs. Napolitano. Thank you for your answer. Thank you.
    Mr. McClintock. Thank you. Mr. Denham for five minutes.
    Mr. Denham. Thank you, Mr. Chairman. My question goes to 
Mr. Connor.
    First of all, the Reclamation has estimated through 2014 
that the implementation of the San Joaquin River Restoration 
Program is about $500 million, and the basic question is where 
is that money going to come from?
    Mr. Connor. Well, I don't know if it is $500 million 
through 2014. I think it is the overall terms of the program, 
which is a longer time period than just 2014.
    Right now from the restoration program it is a collection 
of different opportunities to implement the program. There is 
$88 million in mandatory funding provided by Congress when the 
initial Act was authorized in 2009, so we are using those 
resources right now. The State of California has committed $200 
million for the overall restoration effort. I think that is at 
a minimum. There are funds being made available on an annual 
basis through this Central Valley Project Restoration Fund, 
approximately to the tune of $2 million per year, and there are 
also funds contemplated to be made available from charges that 
are paid for by the water users, and we have appropriations 
request in our 2012 budget, so it is through that collection of 
different funding mechanisms that we are going to use those 
resources to implement the San Joaquin River Restoration 
Program.
    Mr. Denham. Thank you. I would like to see a detail of all 
of that. I have a number of questions here just on the cost-
benefit ratio for the salmon run and re-introducing those to 
the San Joaquin River. I will submit those to you.
    The biggest concern I have right now is what is Reclamation 
doing to replace the water that has been lost so that we can 
actually get our agricultural industry working again in the 
Central Valley? We are at about 20 percent unemployment now.
    Mr. Connor. Well, we are taking a whole lot of actions to 
try and augment the water supplies, to supplement them, to be 
more efficient, and through those efforts efficiency, as 
Congressman Costa indicated, we have a Inner Tie project that 
we funded last year that we had a ground breaking. That is 
estimated to save something in the order of 35,000 acre-feet to 
add to the project water supply. We are supplementing the water 
supply and looking for alternative sources for some of the 
refuges; the level II diversification.
    Mr. Denham. Supplementing or replacing?
    Mr. Connor. Replacing actually through some of the 
flexibility in the water supply for the refuge by looking for 
opportunities to use groundwater. There are CVP contracts with 
that supply, saving some of the storage for other CVP needs. We 
are looking at a water transfer program, which will move water 
from those who have sufficient quantities for their use to 
those who don't have sufficient quantities for their use. We 
are looking at doing an exchange program, source shifting so 
that we can make water available to water users south of Delta, 
and use some of the flexibility of the storage in Southern 
California, and we are doing that with an opportunity with 
Metropolitan Water District.
    So, there are a whole series of actions that we are taking 
to shore up our allocations, to be a little bit more aggressive 
in our allocations while also we engage in our ongoing 
conservation efforts both in the agricultural sector and the 
municipal/industrial sector.
    Mr. Denham. Does it get us to 100 percent allocation?
    Mr. Connor. Well, 100 percent allocation, if you are 100 
percent of the contract, is not something that has been 
experienced in the last 20 years. The average annual allocation 
amount is 62 percent over the last 20 years for south of Delta 
agricultural water service contractors.
    Mr. Denham. Currently this year it is 50 percent?
    Mr. Connor. This year it is 50 percent. The average initial 
allocation, we have only made an initial allocation. We will 
continue the allocation process through the May time period. 
The average annual initial allocation south of Delta 
agricultural water service contractors is 46 percent. We are at 
50 percent this year. If we get additional precipitation in the 
San Joaquin Basin, I anticipate that the south of Delta 
allocation will go up.
    Mr. Denham. We are currently at 130 percent to 200 percent 
of the current snow pack?
    Mr. Connor. We are 127 percent of snow pack year to date 
overall. That was the figure that we used when we made the 
initial allocation. Overall, that reflects 68 percent of the 
overall water year average, so we are a conservative bunch at 
the Bureau of Reclamation, so we have made an allocation based 
on the notion that we have a lot of the water year left. We 
have tried to be as very aggressive as we can because that 
helps the farmers make their decisions, so we are at 50 percent 
right now, but you have to remember we are still under the 
overall year-long average, that 127 percent. That figure 
represents precipitation year to date.
    Mr. Denham. And----
    Mr. McClintock. We are going to have to cut you off there. 
I am sorry. You time is up.
    Mr. Denham. Thank you. I will submit the rest to you.
    Mr. McClintock. We can go for another round of 
questioning----
    Mr. Denham. OK.
    Mr. McClintock.--at the end of this panel. Again, an order 
of seniority when questioning began followed by order of 
arrival, Mr. Costa.
    Mr. Costa. Thank you very much, Mr. Chairman. Mr. Denham, 
it is different than Sacramento, but you will get used to it.
    You know, the Chairman made a good observation about the 
Bureau is the largest wholesaler of water in the entire 
country, 31 million acre-feet on the average, I believe, and I 
think you ought to be making assessments, especially in the 
western states where it is so critical, and we have growth 
patterns that are taking place. And if there is a bar, and I am 
not familiar with that bar that took place previously about 
making these assessments, and we ought to look about removing 
that bar because you cannot be a good purveyor as the largest 
wholesaler of water in the West and not make these assessments 
about the change in growth patterns, whether it is New Mexico, 
Idaho, or California. So that is just food for thought, Mr. 
Chairman, and I would concur working on that.
    Let me grind into some of the questions here. First of all, 
taking off on Mr. Denham's point on the San Luis unit. While it 
is 50 percent there, other Federal service areas are at 100 
percent on different regions within the state. What do you 
think, and I do applaud you, you have announced earlier than 
you have ever before the first early allocation so farmers can 
plan and meet with their bankers and get the loans necessary, 
but I believe that here in the next four weeks, we have rain 
patterns going right now, and I have the actual current flows 
in the snow packs that are Trinity, Shasta and Folsom, as well 
as New Melones and Millerton Lake that are prime reservoir 
supplies for this water.
    I believe the current flexibility that you are 
demonstrating is not being demonstrated with NOAA as it relates 
to the San Luis unit. Do you believe that is the critical area 
in terms of where we could get in in April and May allocation 
that we will have to revert back to flows that would not allow 
us to exceed the 50 percent level?
    Mr. Connor. Well, I am not sure I am following 100 percent. 
I think we are in good shape with the 50 percent allocation.
    Mr. Costa. But I think when we have other areas that have 
100 percent in the area, that we could get up to 60 or 70 
percent, but we are going to have to cut back in April and May, 
as you know.
    Mr. Connor. Right. You are absolutely correct.
    Mr. Costa. And that flexibility that you are demonstrating 
is not being demonstrated, in my view, by the Department of 
Commerce under NOAA even though we have these above average 
rainfall and snow pack on the Sierra.
    Mr. Connor. Let me point out something there. We are 
working very closely with NOAA, and I do think that we have a 
more coordinated and more flexible approach that we are 
applying to all these issues. I should say though you are 
correct. We are going to cut back pumping under the NOAA 
biological opinion in April under its terms, and we will go 
back to a combined----
    Mr. Costa. And that will be a reduction of 200,000 acre-
feet of water, I believe.
    Mr. Connor. I have not done the acre-foot calculation.
    Mr. Costa. OK.
    Mr. Connor. It goes down to 1,500.
    Mr. Costa. But we have to work on that.
    Mr. Connor. Well, let me just mention though it is not just 
the NOAA biological opinion though. That is April. May, we 
would be--whether or not there was a NOAA biological opinion, 
we would be restricting pumping in May. The Bureau of 
Reclamation operates its projects under state water permits. We 
have conditions on those permits. The permit as it currently 
exists----
    Mr. Costa. No, but you also have now two opinions, one by 
Judge Wanger on salmonid that has asked you to go back to the 
drawing board on that, and another one that is pending as it 
relates to Delta Smelt.
    Mr. Connor. And if those are thrown out eventually, which 
actually isn't where the litigation is going. We will still 
have our state water permit conditions which restrict our 
pumping in May.
    Mr. Costa. All right. To be revisited here. We will have to 
sit down and talk about that.
    Let us move over to the San Joaquin River/Delta Settlement 
Agreement. I mentioned in my opening comments that I think we 
have a host of efforts that are not being done. First of all, 
the feasibility study by the Bureau of Reclamation has not been 
done in 2006 or 2008 since the enactment of the legislation. 
Where are we on that?
    The programmatic efforts on the environmental impact 
efforts need to be done if we are going to mitigate for these 
projects. What is your plan to compensate for landowners for 
damages they suffered last year?
    Mr. Connor. We are in the process and working with some of 
the landowners about some of the mitigation activities and the 
compensation for some of the actions that they have had to 
undertake because of seepage concerns.
    Mr. Costa. No, I understand that, but coming back to 
Washington and filing in Small Claims Court is not, in my view, 
a satisfactory resolution.
    Mr. Connor. And that is one part of the group that we have 
not been working with that haven't engaged with us. We have 
others who have engaged with us. We have a mitigation program. 
We are doing the environmental analysis.
    Mr. Costa. What steps are you taking to make sure that they 
won't happen again this year?
    Mr. Connor. Well, we have installed something to the order 
of 100 monitoring wells in the system to understand better 
seepage. We do, as soon as we get our environmental compliance 
activities done, which we are scheduled to do this year, we 
will have a mitigation program. We will be able to compensate 
and take proactive measures to address the seepage issues, and 
we are kind of in the middle of that right now.
    But you are correct, we have ongoing issues associated with 
the release of interim flows, and we need to take care of that.
    Mr. McClintock. Thank you very much.
    Mr. Costa. My time has expired but I would like to revisit 
it if we get a second round.
    Mr. McClintock. We will definitely do a second round.
    Mr. Costa. Thank you.
    Mr. McClintock. Mr. Tipton.
    Mr. Tipton. Thank you, Mr. Chairman, and Commissioner 
Connor, coming out of one of the headwater states, Colorado, we 
are obviously very concerned in terms of our ability to be able 
to store water, and I think for our lower basin state friends 
that is also very important when we are looking at potential 
calls on the river.
    Outside of the Animus-La Plata Project, can you share with 
us any plans that the Bureau of Reclamation may have in terms 
of increasing water storage in the State of Colorado?
    Mr. Connor. In the State of Colorado, off the top of my 
head I don't know that we have any water storage projects per 
se in the State of Colorado right now that we are doing 
assessments on.
    I have to say that with respect to the overall issue raised 
by the Chairman and raised by Congressman Costa about 
assessments we do have an active Basin Studies Program going on 
to assess supply and demand imbalances. We do have on the 
Colorado River Basin itself, we have a lot of stakeholders, 
driven by the seven basin states themselves in which Colorado 
is participating, but a lot of other stakeholders.
    In addressing supply and imbalances, storage options are 
part of that process and there are some stakeholders that are 
interested in looking at new storage opportunities, so whether 
or not we come out in the report on the basin studies is going 
to come out in four areas. It is going to define the problem, 
then it is going to start looking at ways to address the 
problem. Whether or not there are going to be specific storage 
opportunities that are part of those basin studies assessment, 
I am not quite sure right now, but we can check for you and get 
an answer on the record.
    Mr. Tipton. I would appreciate that and I do have to 
express--you know, I am a little concerned, as I think many 
are, that defining the problem, that is easy, we can save a lot 
of money. We don't have enough water stored. And when we have 
these opportunities where we have increased snow pack coming 
through we need to be able to grasp those opportunities, 
particularly for the upper basin states, where we are the 
headwaters. Once the water is gone we have no other opportunity 
to be able to grow our economies, to be able to keep our 
agricultural moving.
    When I heard your comment here that there is not a 
comprehensive plan in place right now to deal with the West, 
you know, it certainly raises the question what have we been 
looking at for a number of years. We have seen population 
transfers going out to the western U.S., and we are going to 
have to be able to have more water to be able to deal with 
that.
    One issue that I am a little curious on because it has come 
up through some of our meetings going back to our district is 
the Endangered Species Act, and I am curious, I visited with 
some BLM Forest Service people and they said that if we have 
fish in fish hatcheries, as the Chairman mentioned in his 
opening statement, when those are released those are not 
included in the count. Can you explain the common sense of that 
to me when the idea is to be able to save the species and have 
them in the river in periods of time?
    Mr. Connor. I do not know the answer to the question about 
how under the Endangered Species Act you account for hatchery 
raised fish versus native fish, quite frankly. I do know though 
that part of what--you take the Colorado River Recovery 
Implementation Program, part of what we do is to fund hatchery 
activities to supplement those native stocks, to try and get 
them to rear and propagate in the natural setting, et cetera, 
and that is all part of the recovery process.
    So, I don't know the specific answer to your question, 
which I assume is more for the Fish and Wildlife Service or 
NOAA fisheries and how they operate the program. I do know that 
hatchery and propagation is one of the key recovery type 
actions that we take under our recovery programs.
    Mr. Tipton. You know, during the last Congress Secretary 
Salazar testified, and I hope that we can be in concurrence 
with a lot of what Bureau of Reclamation needs to be dealing 
with in terms of water storage to be able to help our 
communities, to be able to help job creation, to be able to 
maintain jobs that we currently have, particularly in the 
agricultural communities. But Secretary Salazar testified 
before this committee he had the discretion to waive the 
Endangered Species Act when it came to unemployment caused by 
the Delta Smelt regulation, but indicated by doing so it would 
be ``admitting failure'' to quote him.
    This year some of the snow pack has been estimated to be at 
180 percent of normal in the Sierras, but some irrigators are 
only going to be able to get about 50 percent of their water 
allocation, and that means that at least 1.4 million acre-feet 
of additional project water is just going into the ocean. Do 
you view that as a failure by the Administration in terms of 
standing up for the American people and jobs?
    Mr. Connor. I think there are a lot of factors at play and 
the Endangered Species Act is an oversimplification of the 
factors that are at play that address water issues. As I 
mentioned before, we operate under state water permits, and 
those permits and the conditions such in the values of each 
state and those state laws result in us not--in this particular 
case in California--not pumping water during the May time 
period, which impacts the water supply. As I indicated before, 
people can look at a 62 percent or a 50 percent allocation as 
being a water shortage, but this is something that has been 
going on for the last 20 years, quite frankly. So, there are a 
lot of complicating factors, so I would not sit here and admit 
failure. I would just submit our goal is to continue to improve 
water supply reliability to promote certainty and 
sustainability, and that strikes a proper balance.
    Mr. McClintock. Thank you. Mr. Lujan.
    Mr. Lujan. Mr. Chairman, thank you, and before I begin, in 
addition to Commissioner Connor and Assistant Director 
Werkheiser, I also want to acknowledge another great person 
that is with us today, Deanna Archuleta, who is the Deputy 
Assistant Secretary of Water and Science of the Department of 
the Interior who has been very helpful in helping us navigate 
our ability to be able to look after New Mexico as well.
    Mr. Chairman, I am glad to hear the conversation pertaining 
to the attention to jobs, and what it means to the importance 
of looking at this infrastructure, the work that the Bureau of 
Reclamation does to make sure that communities will be able to 
sustain agricultural projects. That way we can put more farmers 
to work, more ranchers to work, make sure that as we are going 
to have a conversation in the Subcommittee on Indian and Alaska 
Native Affairs, to make sure that we are empowering tribal 
communities as well, to look to see how they can produce more 
food for us, whether it is more beef or lamb, and I am really 
happy to hear that there may be some agreement to the 
importance of these projects.
    Commissioner, in December the President signed into law 
four tribal water rights settlements that ended years of active 
litigation, where dollars were being wasted on litigation as 
opposed to going into those projects that we talk about to make 
sure they are actually producing more food or that they are 
putting more people to work, and so quickly, Commissioner, if 
you could just answer, why is it so important for the Federal 
Government to negotiate and support water right settlements 
with our tribes, and what does it mean for the Reclamation's 
overall mission?
    Mr. Connor. I would reiterate the terrific points that you 
have made, Congressman Lujan. It is about, and I know in your 
opening statement that Reclamation is a part of our goals to 
help economies grow. We want to sustain jobs, also we want to 
protect those agricultural interests. We want to protect the 
recreational interests that exist with healthy rivers, and we 
also want to look for new opportunities to promote economic 
development.
    So, with respect to your question on Indian water right 
settlements, it is certainly for non-Indian water users in the 
communities, both the Acequias in the Rio Pojoaque Basin now 
have certainty, they know what their water supply is going to 
be, and they are not under any threat of Indian water rights 
claims. It is economic development for the tribes. We are going 
to do infrastructure investments with those tribal economies. 
They will benefit from that. Then they will benefit from the 
long-term certainty of having a foundational need for economic 
development, which is water, along with energy, so those tribes 
will benefit in the long term from that. So we are fulfilling 
commitments made long ago to those tribal communities. We are 
helping them grow. We are helping them reach that self-
determination and self-governance that is a Federal policy in 
place, and we are doing so in a manner that benefits their 
neighbors, too.
    Mr. Lujan. Commissioner, I appreciate that. Mr. Chairman, 
as we talked about the importance of making sure that our 
friends in California are also going to be able to get the 
necessary support to their farmers, and I am most familiar with 
this with the conversations I have had with Mr. Costa. There 
are many areas in the country, especially in the West, that we 
look to to provide some support. Southern Colorado with the 
rich area of agriculture, I know a lot of hay comes to New 
Mexico via route of that corridor there, and we are very 
dependent on these important partnerships.
    And hearing from Mr. Garamendi about the importance of 
making sure we strike that balance, to make sure you are 
putting people to work and supporting infrastructure that is 
going to support jobs all over America, especially in the West 
where we are seeing a lot of growth, we can obviously see the 
importance of these projects.
    In New Mexico and throughout the country Native American 
water settlements approved by Congress have settled years of 
water disputes as I discussed earlier. Can you tell me the 
importance and rationale of the New Native American Waters 
Rights Settlement Account and the need for concurrent budget 
request to be able to support those projects that you just 
described, Commissioner?
    Mr. Connor. Well, these settlements represent a very large 
investment by the Federal Government to achieve the benefits 
that I just talked about, and through the Claims Resolution Act 
that the President signed into law last December a very high 
level of mandatory funding is made available as part of that 
piece of legislation.
    That is part of the equation, but we also are going to need 
to look for appropriated dollars to supplement that so that we 
can make sure we take care of the implementation activities 
that are required to fully and finally resolve those claim so 
that the New Indian Rights Settlement Account will be the 
mechanism for transparency.
    We used to have this in project-by project line items 
within our water resources account. This brings it out, this 
identifies the ongoing investments that will complement 
mandatory funding as well as the appropriated dollar will put 
it all out there with the specific settlements we are 
implementing. This is a large part of our program now, so it 
was time to just highlight what we are investing in Indian 
water rights settlements.
    Mr. Lujan. I appreciate that, Commissioner, and Mr. 
Chairman, time is running out here. I know that there is 
another important project that I----
    Mr. McClintock. Time is out now. I have to cut you off 
there. I am sorry.
    Mr. Lujan. Thank you, Mr. Chairman.
    Mr. McClintock. Mr. Gosar is next.
    Dr. Gosar. Along those lines, I would like to address to 
Mr. Connor. With regard to those water settlements, we have to 
look at the Navajo generating station. Located in northern 
Arizona, it serves the energy supply for the delivery of the 
Central Arizona Project water, and the largest ownership 
percentage belongs to the U.S. Bureau of Reclamation, 24.3 
percent. It also serves a major source of electrical energy for 
power consumers in Arizona, California and Nevada.
    NGS is unique in that it is located on the Navajo Nation 
lands, and various leases and grants require for the station, 
coal supply, railroad, and transmission systems will expire 
within the next 10 years. There are a number of environmental 
regulations under development in the process of implementation 
that would require significant capital investment by the 
station owners.
    The most significant issues are with the NGS owners today 
is the Clean Air Act, Regional Hazing Act, or the BART 
termination. The question of what will constitute BART for NGS 
and the timing of the installation of the corresponding 
equipment could pose a real threat to continued operations of 
that station. Should the EPA determine the selective catalytic 
reduction, SCR, in the BAG house for NGS, and that these 
equipment must be installed within the five-year compliance, 
deadline specifically in the BART process. The NGS owners will 
be faced with a decision to invest over a billion dollars at 
the time when the renewal of the leases and the grants remain 
uncertain.
    It is possible that the owners will not be willing to make 
such a large investment with such uncertainty concerning the 
future of this station. Even if the owners approve the 
investment, the cost of these controls will have a significant 
impact on the water delivery costs for the customers of CAP.
    Reclamation has the responsibility for the extension of the 
water service contract for the Navajo generating station while 
the BIA is the lead on the additional land transmission 
agreements. Coal lease extensions are also underway in a 
separate process involving the Office of Surface Mining and the 
BIA. Given the relation of these agreements, the operator has 
encouraged a unified and coordinated process for negotiating 
extensions in order to avoid duplicative requirements and 
streamline decisionmaking. It is currently unclear how the 
Department of the Interior will proceed with the extensions of 
the water, land, and transmission agreement.
    My then question is, where is the Department of the 
Interior in the process of determining how to proceed with 
contract extensions for Navajo generating station, and how is 
the Bureau of Reclamation involved in this decision?
    Mr. Connor. That is a very good question and a very 
complicated question, and you identified all the different 
competing values at stake, and this is a very tough issue for 
us. But with respect to the issue of where we are with the 
decisionmaking process, the stakeholders have asked for a 
coordinated process, and that is what we are trying to give 
them. They asked for a coordinated one, EIS to address all 
these issues, and we are not going to do that route, but we are 
going to coordinate our actions so that we can come up with a 
comprehensive solution. That is what we are shooting for.
    So, we are working under departmental guidance, Reclamation 
obviously is taking a lead role given our interest in the 
generating station itself as well as the water supply contract 
that is looking for renewal. So, we are working with the other 
project owners and trying to work our way through maybe some 
type of proposal that will address the issues in the BART 
process, which is led by EPA, and if we get some kind of timing 
with respect to that, that might be workable, and we are just 
in the middle of discussions right now. And there has been some 
proposals and people are looking at those proposals. But I 
think that is kind of fundamental until we start working back 
on the timelines for the extension of water service contracts, 
right-of-way agreements, of which we are not completely--we, 
the Department, are not. The Navajo Nation has a very strong 
interest that we have to work with through on what they want to 
give for right of ways and the co-lease agreements itself.
    So, it is a step-by-step process that we are trying to look 
at all in one view, and the best I could tell you right now is 
that we are fully engaged. We are coordinating as a department 
in our approach on NGS and we are working with the 
stakeholders.
    Dr. Gosar. With that being said, completing these 
agreements is critical for the continued operations at NGS, and 
it seems that a consolidated Department of the Interior process 
to extend the various pieces needed for continuing operations 
would be the most efficient path forward. Will you commit to 
work with us to ensure that these extensions move forward in a 
unified and timely fashion?
    Mr. Connor. That is our goal and I commit to work with you 
through that process, absolutely.
    Dr. Gosar. Thank you.
    Mr. McClintock. Mr. Garamendi.
    Mr. Garamendi. Thank you very much, and thank you for your 
responses to the many questions that have been raised.
    Does the Bureau of Reclamation have any authority to do a 
general survey of water and power throughout the West?
    Mr. Connor. Not throughout the West, but I don't want to 
leave the impression that we are not addressing the needs 
issue. In fact, we have through our Basin Studies Program a 
very active approach, but we do that with stakeholders. They 
have to cost share. They have to be interested in working with 
us. We are not out there on our own accord trying to dictate 
potential solutions or to define the problems for people. We 
work with stakeholders and the people basin by basin, and that 
is the goal of the Basin Studies Program.
    Mr. Garamendi. You have very specific responsibility in 
specific areas of the West on specific river basins, but not 
generally throughout the West, is that correct?
    Mr. Connor. That is correct.
    Mr. Garamendi. Good.
    Mr. Connor. I mean, water management and allocation is 
primarily a state responsibility.
    Mr. Garamendi. With regard to Title XVI, which is the 
reclamation issue, which I call real reclamation, in California 
there is, perhaps, up to a million acre-feet of water currently 
available in Southern California for reclaiming, recycling the 
water, arguably the fifth biggest river on the West Coast or 
the Western Hemisphere are the sanitation plants in Southern 
California.
    We take water some 500 miles, pump it 5,000 feet in the 
air, clean it, use it once, clean it to a higher standard from 
the day it arrives and dump it in the ocean. Duh, doesn't make 
much sense. So your reclamation program, it seems to me, that 
is, the recycling program, is of extraordinary importance.
    The cost is significant here and we need to understand the 
cost factors. By the way, the Auburn Dam does not yield 2.5 
million acre-feet of water. It yields about 200,000 acre-feet 
of water. There may be storage capacity at that but not yield, 
which is water down the river for use. Quite a different thing. 
And I understand the cost is somewhere in the range of $46,000 
an acre-foot; probably beyond their effort of even a municipal 
to pay for.
    With regard to the allocation issue, you hit this one. I 
think we need to be really careful in understanding the 
allocation issue in California. There are six, I believe six 
different allocations made each year. Jim, Mr. Costa correctly 
pointed out the allocations on the Kern almost always been 
close to 100 percent except in a severe drought. The exchange 
contractors are almost always at 100 percent. It is in fact one 
unit that is--I don't think has ever gotten to 100 percent 
because their contract doesn't call for 100 percent, and that 
is the San Luis unit. They are the short straw. They are the 
straw that gets what is left over in any given year, and we 
need to be very careful as we discuss these issues of 
allocation, and your effort to come in earlier on allocations 
is very important to everybody, environment as well as the 
agricultural area, and you are doing a good job with that and 
we appreciate that.
    One more thing, and this is where my question goes. We 
currently have passed legislation out of this House that would 
stop the Bureau of Reclamation from activities on the San 
Joaquin, and I think Mr. Costa is going to go back at this and 
I would urge you to pay careful attention to his desire for 
coordination among the Federal and state agencies, and the 
local agencies. I think he is right on point with that.
    However, it doesn't make any sense to stop the Bureau of 
Reclamation on the San Joaquin settlement, it doesn't make any 
sense to stop the Fish and Wildlife Service and NMFS on the 
biological opinions in the Delta. What would be the impact of 
doing that should that CR actually become, CR-1 actually become 
law?
    Mr. Connor. Well, a two-part question there and I will try 
and be brief. With respect to restricting the Bureau of 
Reclamation's ability to comply with the reasonable and prudent 
alternatives that are in the biological opinions on CVP 
operations, that would result, if we cannot implement the 
reasonable and prudent alternatives, then we lose our 
incidental take protection under the Endangered Species Act, 
and we have ongoing incidental take, and we will have no choice 
but to cease our operations because we can't be in violation of 
the Endangered Species Act.
    Mr. Garamendi. Cease meaning shut the pumps down?
    Mr. Connor. That is correct. We cannot operation the 
project in violation of the Endangered Species Act.
    With respect to the question on the San Joaquin River 
restoration program, limiting the ability to implement the 
settlement at some point in time makes the settlement 
noneffective and you have the uncertainty and you have the 
ongoing conflict that resulted in the settlement in the first 
place.
    Once again a Federal court judge has held that the Bureau 
of Reclamation is in violation of state law, not the Federal 
law, state law. There is a provision in the California Waters 
Code that we have been held to be in violation of. This 
settlement resolves that issue by providing for the flows 
needed to be maintained below Friant Dam. And what we have done 
instead of just having a judge order the release of storage is 
to have a very thoughtful approach on what releases would be 
needed to be made, how we would address the fishery restoration 
issues, how we would try and engage how to have the river hold 
the flows, and make improvements along various reaches of the 
river. So we try, as I understand it, those who negotiated the 
settlement, to take a thoughtful approach with the limited 
impacts to resolve this very contentious issue.
    Mr. McClintock. Thank you. Ms. Noem.
    Ms. Noem. Thank you, Mr. Chairman.
    Mr. Connor, I have a couple of questions for you, and I 
think that specifically you talked quite a bit about certainty 
and sustainability, and then it was very encouraging to me to 
also hear you talk about fulfilling commitments because I have 
a curiosity about how you prioritize the dollars that come 
through the Bureau of Reclamation; talking about climate change 
and river restoration and those things tend to be a priority. I 
am wondering where people factor into that in getting critical 
water needs met within specific projects that have been out 
there.
    I know that there are many projects in the past that have 
been authorized but haven't been completed. And I know that 
when you prioritize within those projects that you are sending 
dollars to you look at if they touch Native American tribes, 
you look at how near they are to completion, but in many of 
these projects the local communities have invested dollars, the 
state has invested dollars, and these people are waiting for 
high-quality water, or hundreds of thousands of people for 
these dollars to come in and finish these projects.
    So, I am curious, when you have the amount of dollars that 
come into the Bureau of Reclamation how you prioritize those 
based on the Endangered Species Act, based on river 
restoration, based on everything else, and how you factor that 
and prioritize that according to people actually getting their 
drinking water needs met.
    Mr. Connor. Well, I would say that everything we do is 
about people, quite frankly. First of all, when we prioritize 
our budget we look at what do we need to operate, maintain and 
take care of the infrastructure and the ongoing obligations 
that we have to our water contractors. Quite frankly, we can 
talk about the ESA in the abstract or we can talk about river 
restoration, but to me those are fundamental parts of our 
mission because if we do not take care of and comply with the 
Endangered Species Act, if we are not addressing the effects of 
our operations on the environment, then under the laws that we 
operate, whether they are Federal or state, we will not be able 
to deliver water and generate power which benefits people, or 
sustain the economies built up from the recreational standpoint 
from living rivers that are health river, too.
    So, that certainly to me is part and parcel of our overall 
set of responsibilities that are critical to address the needs 
of people. Drinking water is--you are absolutely correct. It is 
fundamental and we have a very strong need there. We have 
certainly prioritized the work we are doing on Indian water 
rights settlements. Congress has directed us to implement a 
number of these settlements by a certain date out there, so in 
our limited budget resources we are trying to do the best we 
can to manage to make sure we can meet those commitments.
    Our rural water projects, of which are very important to 
your state, and I certainly appreciate that, quite frankly, we 
are down this year in this budget in rural water project 
funding. We have prioritized them because of the cost of 
completion, or where it is in the ability to complete that 
project as well as fundamentally our operating and maintenance 
costs for those rural water projects are the priority.
    I can say that we were very happy to be able to invest $232 
million of our Recovery Act dollars in the rural water 
programs, and that helped us great to get with some of the 
larger pieces of infrastructure water treatment plants, which 
are very costly, so that we can take whatever resources we have 
and try to continue to just lay pipeline and get more 
communities, but I acknowledge that that program is down this 
year. We are happy to have made the investment, but we need to 
look at ways to make that investment in the future. I am sorry.
    Ms. Noem. So when you are specifically looking at your 
dollars that you have available, do you have a formula that you 
follow as far as how you make your request known and how you 
specifically designate your dollars?
    Mr. Connor. Not a specific formula. As I mentioned, I think 
operation, maintenance, rehabilitation, those kind of 
fundamental items are looked at first. Then we look at all the 
other obligations we have to be able to maintain those 
facilities, et cetera, and operate those facilities such as the 
laws that I mentioned, Endangered Species Act, et cetera, and 
we are kind of looking at a balanced set of approaches to deal 
with the many challenges that we have. You know, we have got 6 
billion for basis. We think it is very imperative to look at 
supply and demand imbalances. Climate change is one factor in 
that, so we try and have an aggressive program to better 
understand. We have science and technology related to invasive 
species that are impacting our facilities. As I mentioned, we 
have the Indian Water Rights Settlements Program, which we view 
as obligations under our budget.
    Ms. Noem. So one final question before my time runs out.
    Mr. Connor. Certainly.
    Ms. Noem. So how do you decide which project to fund over 
another without using a formula?
    Mr. Connor. Well, in each type of--so take rural water 
projects, we do have criteria that we use just as we have 
criteria that we use with respect to our----
    Ms. Noem. Is population served one of those criteria?
    Mr. Connor. It is not at this point in time. Population 
served is one thing that I am looking at right now.
    Ms. Noem. All right, thank you very much.
    Mr. McClintock. Mr. Markey, your timing is impeccable. You 
are next.
    Mr. Markey. Thank you. I appreciate it. Thank you so much.
    Whether it is terrorist threats on our nation's critical 
infrastructure or threats to our water supply from climate 
change, Reclamation's budget helps to arm our water managers 
with the tools that they need to face water challenges head on. 
Last week the FBI arrested a Texas resident charged with the 
attempted use of a weapon of mass destruction. His targets 
included President Bush's house, nuclear power plants and dams 
and reservoirs in California and Colorado. I understand that in 
2010 the Bureau of Reclamation requested $28.8 million for site 
security, of that $21.3 million for guards and $7.5 million for 
physical improvements and upgrades.
    How often does Reclamation inspect all of these dams to 
ensure that the operators are doing what they said they would 
do in their security plans?
    Mr. Connor. Thank you, Congressman Markey.
    We have an ongoing inspection program that really at this 
point in time is carrying out a set of actions that were 
undertaken after 9/11 to fortify our facilities. We have five 
facilities in particular that are of national significance, so 
we have looked at those and prioritized those with respect to 
fortifications. We have invested over the last 10 years or so 
approximately $100 million in fortification, plus the ongoing 
annual security costs, operating and maintenance costs that we 
need on a year-to-year basis.
    So, we have the plans in place. We are still in the process 
of implementing that plan, which is requiring ongoing 
inspections, assessments that are carried out not only by 
Bureau of Reclamation but by the Department folks also who we 
work with very closely with. So, it is an ongoing effort and we 
are still fortifying.
    Mr. Markey. So, do the plans need any further revising 
given the fact that these facilities were first constructed 
when terrorist threats were very different than they are today? 
Are you revising them?
    Mr. Connor. Yes, we are as we go forward.
    Mr. Markey. What is the deadline that you have set for the 
completion of the revisions?
    Mr. Connor. The fortifications process, I don't know that 
answer off the top of my head so I will have to provide it for 
the written record.
    Mr. Markey. Is it six months or two years? Can you give us 
some estimate?
    Mr. Connor. Well, it is an ongoing process, quite frankly, 
where we automate, where we do surveillance, where we 
undertaken other activities, but over time as we get more 
fortifications in place----
    Mr. Markey. No, I appreciate that. It is just that this 
person who was arrested last week who was threatening to kill 
President Bush but also to attack dams and reservoirs in 
California and Colorado, I hope will intensify your----
    Mr. Connor. Oh, absolutely.
    Mr. Markey.--and telescope the timeframe that it will take 
for you to present a final plan to protect against a 
catastrophic event occurring because we know al-Qaeda is out 
there. We know that they put these kinds of targets at the very 
top of their terrorist list, and I just think that it is 
important for you to complete that in a timely fashion.
    Mr. Connor. Absolutely.
    Mr. Markey. Reclamation was established as an agency over a 
century ago. Commissioner, our water supply outlook changed 
since that time in the United States. What does that mean for 
Reclamation's project facilities? How is Reclamation helping 
communities in the West mitigate against the effects of climate 
change on water supplies?
    Mr. Connor. We have several programs in place but it starts 
with our science and technology program. We are still in the 
process of gaining a better understanding of the impacts of 
climate change. Now, we know already from the factual data that 
exists over the last decade or so about less precipitation in 
the form of snow pack, which is storage, and more in rain, so 
we are going to have more frequent flooding events, and we are 
having earlier runoff, and we are having more demand because of 
higher temperatures, so we know certain aspects.
    We are still trying to better understand over the long term 
how precipitation patterns might change. There is certainly a 
good agreement amongst a lot of global circulation models, 
atmospheric models that suggest that we are likely to have a 10 
percent reduction in in-flows in the Colorado River system over 
time through a very oversubscribed system.
    Mr. Markey. What timeframe are you using for that reduction 
in water?
    Mr. Connor. Ten percent is based on the analyses we have 
done, consolidating all of the available analysis in the 2060 
timeframe.
    Mr. Markey. Thank you.
    Mr. McClintock. We are out of time. We next need to go to 
Mr. Gohmert.
    Mr. Gohmert. Thank you, Mr. Chairman, and appreciate the 
witnesses being here, but heck, I will just follow up on that.
    I know in my district we have had more snow that we have 
had in my lifetime and people aren't used to paying a lot of 
energy cost in the wintertime because it is just normally not 
this cold as it has been, and even the gentleman from East 
Anglia that is supposed to be such an expert has basically 
admitted there are indications that things may be cooling.
    So, are you supporting efforts to try to get more carbon 
dioxide into the atmosphere so that we can try to bring down 
the amount of snow that we are getting in areas that don't want 
it, don't need it because it sounds like we need to reverse 
course here so that we can help the people that don't need this 
snow and ice, and have been really adversely affected?
    I have some people that cannot pay their propane bills out 
in rural areas, so anything you can do to help produce more 
CO<INF>2</INF> would be helpful to the folks in my district.
    But you know, with regard to the way this country seems to 
so often shoot itself in the foot, I was part of a task force 
back five or six years ago that went around the country having 
hearings regarding environmental protection and endangered 
species, and we heard from one energy producer up in Washington 
State that they had been required to take actions that cost 
seven or eight million dollars to save 20 salmon, and, of 
course, rate payers pay for that kind of thing. And you know, 
we have spent, as a colleague has alluded to, really decades 
trying to save endangered species, and we have cost taxpayers 
billions and billions of dollars, and then out of pocket from 
private landowners who haven't been able to use their own land, 
and yet we have preserved less than 1 percent of the endangered 
species, so obviously it is not working. We are wasting money 
and we are not doing it efficiently.
    And then we hear the Delta Smelt has cost people jobs, 
which hurts families and hurts children. It hurts schools, it 
hurts everybody, and the fact that God has been gracious and 
granted some extra rain this year is nice, but at some point we 
are expected to be good stewards with what we are getting the 
rest of the time.
    So, I just wondered if maybe in your work as Reclamation if 
you had some suggestions of things that we could do to improve 
the horrible, horrible efficiency of the endangered species 
where we could actually preserve some species and not condemn 
private landowners to never using their land effectively again. 
Any thoughts? Any suggestions?
    Mr. Connor. I agree with you that we need to look to 
continually with more efficiency and better science on how we 
implement the Endangered Species Act. We are certainly trying 
to do this. I can give you examples specifically with respect 
to California water with one of the biological opinions. You 
mentioned the Delta Smelt. One question has been where are the 
smelt and how are they impacted by the pumps, and there are 
certain assumptions made in the biological opinion because the 
smelt follow turbidity, so one of the things that we have done, 
I think people, there are different views, but they are willing 
to accept the need for some measures if they are good 
scientifically based and justified and they believe it is good 
science.
    So, we have gone out, we have certainly tried to increase 
our ability to monitor turbidity, to find out how it influences 
where the smelt are. Those actions----
    Mr. Gohmert. My time is running out. I was looking for 
specific concrete suggestions, and so I would ask if you could 
have people on your staff maybe brainstorm things we could do 
to improve the efficiency of that.
    But I know you deal with lawsuits, virtually every project 
has a lawsuit against it, and I noted that our staff had found 
that Trout Unlimited in 2010 was given $500,000 in a grant for 
ecosystem restoration purposes, and they also happen to have a 
lawsuit pending against the Federal Government over Colorado 
River operations. Is this a common thing where we give grants 
to people that are suing us apparently since money is fungible 
can fund the operation of suing our Federal Government? Brief 
answer.
    Mr. Connor. Yes, I think it is common because we give a lot 
of grants to irrigation districts who also sue us, as well as 
environmental groups who sue us in other contexts. I think the 
reality of a grant is we want to make it for a specific action. 
We want to be able to verify that it is used for that action, 
which is not litigation-based. The reality of the situation is 
everybody sues us.
    Mr. Gohmert. OK, it sounds like we keep feeding the dogs 
trained to bite us so we need to do something.
    Mr. McClintock. I have to cut you off.
    Mr. Gohmert. Thank you.
    Mr. McClintock. Mr. Labrador.
    Mr. Labrador. I don't believe I have any questions.
    Mr. McClintock. All right. Well, then we will begin a 
second round of questions, and I would like to begin, Mr. 
Connor, by revisiting the Klamath Dam issue.
    I think you left a very false impression that the agreement 
has overwhelming if not unanimous support from the people of 
the region. The fact is the off project irrigators have 
rejected the deal. A nearby county referendum overwhelmingly 
rejected the idea of dam destruction in the last election 
cycle. Several local elections were decided decisively against 
candidates who were supporting that project, and that 
agreement, and that was the main issue in those campaigns. 
Siskiyou County Board of Supervisors formally have taken a 
position of opposition in a letter to Congress. So, to suggest 
that somehow this is overwhelmingly supported by the locals is 
exactly precisely the opposite of the truth.
    I would also note that you forgot to mention in discussing 
increased cost of electricity to consumers that those increases 
are entirely because of government fait and not because of an 
increased cost of actually generating the power, and in fact 
the cost of replacement power for those dams is going to be 
many, many times the actual cost of generating the power.
    I will agree with you that the settlement is agreed to by 
those who would make a great deal of money off of the 
agreement, starting with PacifiCorp, which would be getting a 
half a billion dollars of taxpayer funds to tear down their own 
dam.
    With that, I would like to ask a question regarding the 
Iron Gate Fishery. Part of the agreement, which shut down that 
fishery, that hatchery that is producing 5 million salmon smolt 
a year, 17,000 of which return to the river as fully grown 
adults to spawn. How does that action improve salmon 
populations of the Klamath?
    Mr. Connor. I don't believe that is accurate that the Iron 
Gate Fish Hatchery would be destroyed. My understanding is----
    Mr. McClintock. It would be closed. You are shutting off 
the water to it.
    Mr. Connor. My understanding that under the agreement 
PacifiCorp is currently evaluating how to operate the facility 
without the dam and has agreed to fund it something on the 
order of eight years plus after dam removal should dam removal 
ever take place. So, it is anticipated that that hatchery will 
remain in operation and PacifiCorp has agreed to fund it.
    Mr. McClintock. The fact of the matter is the population 
count supporting destruction of those dams specifically and 
deliberately ignore the fish bred at the hatchery, including 
those that return as fully grown adults.
    Mr. Connor. Well, I think the best analysis of what will 
happen with dam removal is to allow the secretarial 
determination process to proceed and the open and transparent 
science that is being done right now to inform all communities 
of the cost, benefits, et cetera, associated with the dam 
removal and the two criteria for secretarial determination are 
public interest, taking account of economic factors, and from a 
biological perspective what will be the impact on the fishery, 
will the dam removal indeed lead to fishery restoration.
    Mr. McClintock. Let us go on to the Glen Canyon Dam that 
has lost a third of its capacity, a thousand megawatts of lost 
electricity due to environmental flows. How many megawatts 
bureau-wide have been lost over the past decade to 
environmental flows?
    Mr. Connor. I don't have a figure for lost hydropower 
generation due to various laws, et cetera.
    Mr. McClintock. That is correct, a thousand megawatts is 
roughly enough for a million households, and that is just the 
loss of the Glen Canyon Dam due to the environmental flows. 
Don't you think that the Bureau of Reclamation charged with 
responsibility for superintending our hydroelectric facilities 
should have an accurate idea of how much generating capacity 
has been squandered with these environmental flows?
    Mr. Connor. Well, we do work on those issues. We try and 
maximize what we can doing with the issues we have to address, 
and we are doing that at Glen Canyon, but we also are not 
standing pat. We are bringing online more hydropower resources 
all the time. We have through our efficiency and operating 
program increased hydropower generating capacity to the tune of 
almost 2,000 megawatts over the last 25 years----
    Mr. McClintock. I would just in the final five second 
express the thought that you really need to get a handle on 
what our needs are, what our resources are, or what we are 
losing and what we are holding onto, and with that I will 
recognize Mrs. Napolitano.
    Mrs. Napolitano. Thank you, Mr. Chairman.
    Just a little bit of clarification. The issue of low-flush 
toilets and its impact in L.A. County, and the young lady is 
not here but just for the record I would like to indicate that 
the county has 12 million people, and in 30 years of water 
recycling the conservation, the storage, the education of the 
people, we are still using the same amount of water of three 
decades ago with an increase of 3.5 million people in that 30 
years. So you understand how critical all of it is, it is part 
and parcel of being able to address how do we conserve, how do 
we train, how do we store water, so a lot of credit goes to the 
Bureau of Reclamation for working with my entities.
    Second, Mr. Chair, I would like to for the record ask for a 
written request for the update on the Quagga mussel research, 
which is very impactful in many of the entities that have to 
fight and pay millions of dollars to clean off their intake 
valves, et cetera, and all that good stuff.
    Also, for the record, what is the next step in water 
recycling follow-through with not only Congress but the Bureau 
where basins, water basins are doing power plays to take that 
water and eventually increase the cost to the consumer, and 
that is something else I would want to cover with you?
    But the last one I would want to, Mr. Werkheiser, is the 
aquifer have not been mentioned. That is the great concern 
because of the ability to be able to store runoff, be able to 
reclaim water, recycled water, and clean it to the extent that 
it will meld with good water if the aquifer is in good shape.
    So, I would like to have some input on how we can be able 
to identify, especially in areas that have high drought, or 
areas that have high runoff from the snow pack melt so they can 
capture some of it for later use.
    Mr. Werkheiser. I think there are a number of what we would 
call aquifer and storage recovery projects where we take water 
during plentiful times, inject it into the aquifer for then 
reuse or use later on during times of low water available or 
drought. Those studies are pretty site-specific. Aquifers are 
different in their properties to be able to take in water and 
store it, so I think the last thing we want to do is to put in 
water that we can no longer retrieve. So, we have to be careful 
about how we identify those, so it is a pretty site-specific 
analysis that we do, but we do have a number of those studies 
going on. Many of them in California as a matter of fact.
    Mrs. Napolitano. Well, there is a big issue in my area 
because some of the cities are beginning to fight over whose 
water it is, and somewhere we need to be able to help the state 
determine how does a state allow for the pumping and not 
overdrafting of the areas, and so those are real critical.
    But I have recently talked to somebody that said that they 
thought their aquifer was not capable of being able to take in 
any recharge, and we need to be able to help them understand 
whether that is true or not, and how they can help themselves 
and help them build that infrastructure to be able to do that 
recapture.
    Commissioner, the last question I have for you is, what is 
Reclamation focusing on or engaged in where it is not only your 
mission but creates jobs, and I know you touched lightly upon 
it? Can you expound a little more?
    Mr. Connor. Well, I think job creation activity is on many 
levels, but first I would just like to reiterate that I view 
one of our primary goals as sustaining jobs. We have a lot of 
economies that are dependent upon the water and power 
resources, and so we are very cognizant of that, and will 
continue to try and make our contractual commitments to take 
care of those economies whether independent or dependent upon 
power.
    In the midst of that we have very active construction 
programs in place all throughout the West, whether it is taking 
care of our existing infrastructure or developing new water 
projects, particularly those in Indian country.
    Mrs. Napolitano. Are you requiring them--I am sorry to 
interrupt, my time is running out--is providing to this body 
how many jobs are being created by not only the projects but 
ancillary to those?
    Mr. Connor. We don't have specific figures. We have had 
general figures about the impact of Recovery Act, the $950 
million investment that we have made in the expected creation 
of approximately 10,300 jobs based on the criteria that have 
been identified for us. That is really related to 
infrastructure development. There are different figures for 
coastal restoration, something to the tune of a million dollars 
invested will yield 30 jobs. That was part of the Department of 
the Interior's report in 2009. Recreation would be a million 
dollars invested yields 22 jobs.
    Mrs. Napolitano. But it would be nice to have a----
    Mr. McClintock. Time is up on this.
    Mrs. Napolitano. Thank you.
    Mr. McClintock. Mr. Denham.
    Mr. Denham. Thank you. First of all, you had mentioned when 
there is a take, the Delta pumps shut down. How do you define a 
take?
    Mr. Connor. There is ongoing take all the time. We have a 
fish salvage facility associated with our Jones Pumping Plant, 
and----
    Mr. Denham. When you make the determination to shut a pump 
down, the take is one fish, 100 fish, how many fish per hour or 
per minute? How do you define that?
    Mr. Connor. Well, there is an incremental scale based on 
month to month right now, and we have not had to shut down the 
pumps for awhile even though we are taking tape because we have 
not exceeded our take limits that are part of the biological 
opinion, so we are permitted to take species under our current 
operating plan.
    Mr. Denham. What is the take limit?
    Mr. Connor. The take limit is different for different 
months of the year, and I don't know those figures off the top 
of my head.
    Mr. Denham. OK. And are there sensors at the pump? How do 
you know when fish are----
    Mr. Connor. Well, actually we collect. There is a 
collection facility at the pumping station so we can actually 
track how many fish we are actually taking, and the biological 
opinion has a formula for projecting how many fish that we are 
not being able to capture that are being taken, and that is the 
basis upon which if we exceed a certain figure in a certain 
month, then we are in violation of our permit, and we have to 
shut the pumps down.
    Mr. Denham. So you have a random sample before or after the 
pumps?
    Mr. Connor. It is with the pumps, you know. It is 
associated with the pumping facility itself. We collect fish in 
the water that is coming to the pumps.
    Mr. Denham. OK. I find that process very interesting and 
subjective, but I will save those questions for a later time.
    Specifically on the budget, you have the Mid-Pacific Region 
has proposed a new creation of a new Bay-Delta office. I mean, 
we are cutting right now, and we are going to set up a new 
office, a new bureaucracy. What is this office going to do? How 
many employees is it going to have, the job duties?
    Mr. Connor. Well, we have a lot of issues associated with 
the Bay-Delta, not the least of which is our very active Bay-
Delta Conservation Plan Program, which is intended to look at 
the long-term solutions, the California water issues, so we are 
just consolidating. We are restructuring. We are not adding new 
people for this Bay-Delta area office that we created. We think 
it is a more efficient way for us to address the myriad of 
issues that we have in California, and from that standpoint the 
exact staffing of the office, which is coming from other places 
already, I don't know off the top of my head. I am happy to get 
that for you for the record.
    Mr. Denham. So you can show reductions out of other 
offices?
    Mr. Connor. Yes, we are moving people from other area 
offices associated with the CVP in our operations and 
consolidating them to run Bay-Delta, to really focus on that, 
so it is an organizational thing. It is not an enlargement of 
the Bureau's staffing.
    Mr. Denham. Thank you. Just one final question. Earlier I 
had asked about the 130 to 200 percent of snowfall that we are 
seeing right now. Obviously, we have a huge snow pack right 
now. Mother Nature heats up a little too quick, are you 
planning for the loss of water? What type of planning do you go 
through, and how do you work with FEMA on that?
    Mr. Connor. Well, we are constantly monitoring snow pack 
and temperature conditions and working with our partners to 
assess when we might be in a flood control situation, so really 
what has happened early this year it is a constant process. We 
have had to evacuate water out of the flood storage areas in 
Shasta Dam, and Folsom constantly over this winter, so it is a 
constant management process that we undertake right now, and we 
have been up to the limits of the channel in the American River 
earlier this year. We were very concerned about the possibility 
of flooding outside the flood bank, but fortunately we didn't 
do that. There was no property damages, et cetera.
    So, we are not anticipating right now that we are going to 
have a disaster situation. We will certainly be in contact with 
FEMA, but it is a constant monitoring of the situation to make 
sure that the reservoirs are leaving enough space in them to 
deal with any in-flows and temperature increase.
    Mr. Denham. Thank you.
    Mr. McClintock. Mr. Costa.
    Mr. Costa. Thank you very much, Mr. Chairman. More on 
California. I want to commend the Bureau, we have asked you a 
lot of questions here, and we have concerns, but on the 
consolidation of the Bay-Delta conservation plan effort. As you 
know, all of the water users got together last fall and they 
were really questioning the Bureau's commitment to this 
process. Frankly, without your full participation, and I have 
told Secretary Salazar this, and I will reiterate it tomorrow, 
this isn't going to work. Our folks are wondering whether or 
not they ought to continue to participate, in part based upon 
your commitment and all the Federal agencies to make this work. 
So the consolidation, notwithstanding budget cuts, I think is 
an important statement to that effect.
    I want to get back to the question, you know, I represent, 
as you know, not only the west side of the San Luis unit, the 
exchange contractors, we have a lot of them here today who have 
been listening very carefully to every work you have uttered as 
it relates to the river settlement agreement, the Friant water 
users as well as the state water project down in Kern County.
    We have discussed in the settlement agreement so far this 
morning about a number of elements, but major channel 
improvements are going to have to be built in the next few 
years costing tens of millions of dollars. I would like to know 
what the status of this project is.
    I mentioned earlier in my questioning the feasibility study 
that still has not been produced, the program environmental 
impact statement that has not been published. We have a host of 
projects--let me just list them here because we know we have 
the local environmental funding that is a part of the match.
    We know we have the state funding, which is $100 billion, 
and I don't know where this Federal funding is going to be 
coming from. To complete the program environmental impact 
statement, we have the Mendota Pool Bypass, that is $74 
million. We have Reach 2-B5 improvements, that is $130 million. 
We have Reach 4-B6 improvements. That is $40 million. We have 
Aroya Canal fish screens, that is $25 million. We have mud in 
South Slough Barriers, that is $5 million, and you know, Fish 
and Wildlife is off on the other side. I don't know, you guy 
aren't talking to each other. Unless you are going to breed 
these fish to crawl on sand, you are not going to make this 
thing work by 2013 or 2014 unless these channel improvements 
are made, unless we are working with folks.
    Mr. Connor, or as I would say, Mike, this is a problem.
    Mr. Connor. Yes. Well, to answer your question, I think 
initially the assessments and the analysis and the EIS that is 
going to launch all of this with respect to the channel 
improvements, I think, and I am going to correct this on the 
record if I get it wrong, is due in the latter part of this 
year, and I know we are working expeditiously on that.
    Money is an issue to implement----
    Mr. Costa. No, I understand but we have to be mindful of 
these milestones, these dates, if we are going to make this 
thing work, and maybe we need to reset, as we say with our 
negotiations with Russia, reset this so the right hand knows 
what the left hand is doing, and it is being coordinated in a 
way that is going to work.
    And in this era of budget cuts, it seems to me that we 
ought to look at innovative ways to allow the local agencies to 
maybe do some of your work for you. Frankly, they have an 
incentive to do it. Second, they can do it in many ways I think 
that are more cost effective with the same funding that we 
already know has been allocated for this.
    The settlement project has two co-equal goals: river 
restoration and water management. My colleague congressmen 
talked about the efforts on water management and returning that 
to the east side. It also provides that no third party will be 
impacted as a result of the settlement agreement. I sat in 
those negotiations for a period of months with Senator 
Feinstein. The third party impacts are a big deal, and your 
fiscal year budget really doesn't address, in my view, the 
minimizing or the avoidance of losses in terms of the 
recirculation plan. I think that needs to be back there front 
and center. Everybody ought to be getting healthy together 
again.
    And while I asked you the questions on what concrete steps 
Reclamation is taking to deal with third party impacts where 
they have risen, I am not satisfied with the response to far, 
Mr. Connor, and where the budget funds are going to be used to 
mitigate these impacts, I don't think is here.
    Mr. Connor. Well, with respect to recirculated water, that 
has been an ongoing activity, and we think we did pretty good.
    Mr. Costa. I will give you credit. You did you make some 
progress.
    Let me close because my time is running out here and I will 
have to submit the rest of the questions. In the letter I sent 
you in September of last year, I noted these concerns and 
others and the financing of the San Joaquin River Restoration 
Program. I requested a five-year plan that identifies how 
Reclamation intends to proceed with the implementation in a 
manner that is feasible with current available funding. I have 
also requested this report include the avoidance of impacts.
    Mr. Connor, to this date we have not seen this plan. We 
have yet to see many of the portions of the settlement, 
including the interim flows, and we have to do better.
    Mr. Connor. We will get you a response very soon.
    Mr. McClintock. Mr. Gosar.
    Dr. Gosar. Mr. Werkheiser, you just made mention a minute 
ago to Ms. Napolitano that you have to be very, very careful 
with subsurface water, and with that assertion I want to remind 
you about Arizona being very differential in the way they look 
at surface and subsurface water in those allocations, including 
water banking.
    For the past 10 years the USGS Northern Arizona Regional 
Groundwater Flow Model has in development in an attempt to 
provide basic hydrology frameworks for most of Northern 
Arizona's groundwater basins. As you know, rural communities 
are almost all totally dependent on groundwater, Prescott, 
Prescott Valley, and other municipalities are virtually and 
vitally interested in that USGS report.
    Late last year the hydrology staff of the City of Prescott, 
Prescott Valley, and the officials at Arizona Department of 
Water Resources discovered the model was closed to public 
release, and there were concerns about the model's scope, 
particularly regarding the Big Chino's subbasin and its 
relation with the Upper Verdi River.
    The concerned parties expressed concern to USGS Arizona 
Water Science Center officials about the model scope, potential 
for misuse, and advised the USGS on steps that could have been 
taken to rectify concerns about the report's content. Despite 
these concerns, the officials defended USGS's technical review 
process and have continued to take steps toward--ultimately it 
to former Congressman John Shadegg and I to officially 
intervene with these concerns before we got some rectification 
and cooperation with officials.
    I am pleased at the current engagement that I believe 
ultimately the USGS officials and the local technical experts 
will resolve differences, and ensure that this model reflects 
the unique geology of the area, historical measurements as 
documented by local technicians and accurate assessments of 
water falls we will continue to monitor.
    However, my concern is, why did it take congressional 
intervention to get USGS to involve local entities, such as the 
Arizona Department of Water Resources, the Yavapai County Water 
Advisory Committee, and the City of Prescott's hydrology staff 
in the collection of background data, the initial drafting of 
this model, and the peer-to-peer review process?
    Groundwater issues are very important to the State of 
Arizona and inaccurate models would have potentially grave 
consequences to the specific statutory water rights of 
Prescott. More importantly, the Big Chino subbasin and more 
generally undermine Arizona water law, which could be caused by 
such a report if it represents anything less than 
scientifically, fully vetted data of the highest quality, or 
ineffectively communicates that science to the public.
    Given USGS commitment to impartiality and scientific 
integrity, wouldn't officials want to engage with local experts 
throughout the drafting process on work such as the ground flow 
model?
    Mr. Werkheiser. Yes, I am familiar with the issue, and 
understand the concerns, and I guess what I would say is that 
we did look at the technical concerns, and we do have a 
provision in our peer review and scientific integrity policy to 
allow agencies who might be affected by the results to have a 
courtesy copy of the report, and that is what happened in this 
case.
    I will say that throughout the life of the project there 
was a stakeholder group that advised the technical development 
of the model. Now, I don't think Prescott was always involved 
in that group, and that was probably an error on our part.
    So, you know, our take-away message is to make sure we have 
everybody at the table as we develop these models, and an 
invitation isn't sufficient. Everybody is busy. We need to make 
sure they engage in a very appropriate way.
    Dr. Gosar. I want to remind you of the implications of 
those types of data and that information.
    Mr. Connor, I have a brief minute. In regard to the 
Chairman's comments about Glen Canyon Dam's release, there is 
information being released through the media that some of those 
releases actually benefit the humpback chub when they were 
detrimental to the humpback chub, and actually increased the 
numbers of trout, which eat the humpback chub.
    Are you re-evaluating that process anytime soon?
    Mr. Connor. The study's process is ever evolving, and the 
impact of the native trout population and the chub is something 
that we are actually looking at through an environmental 
assessment process right now as we try and deal with some of 
the issues in non-native management and trying to improve that 
process as it impacts also our operation of the facility.
    So, the answer to your question is yes, it is constantly 
new information that we are looking at in assessing based on 
the information we have how to do it better in operations.
    Dr. Gosar. Thank you.
    Mr. McClintock. Mr. Lujan.
    Mr. Lujan. Thank you, Mr. Chairman. Again, I appreciate the 
conversation pertaining to access to clean drinking water, and 
making sure that projects all over the country that provide 
this basic necessity for human health, for the health of our 
agricultural community, both farmers and ranchers, again is 
something that we need to be cognitive of.
    Last week I believe it was or the week before when we voted 
on that budget bill that was proposed by the Majority, there 
was an aspect that reduced projects and programmatic funding to 
350 ongoing projects to the Army Corps of Engineers and the 
Bureau of Reclamation.
    So as we sit today and so critical of the Bureau for making 
sure that investments are going to benefit people, people will 
have access to clean drinking water, and that we are going to 
make sure that waste water and sewage does not get into that 
drinking water so that way we can provide it to farmers and 
producers, and for people to drink is something that we need to 
be aware of.
    Furthermore, there was a Section 3001, three, zero, zero, 
one, that reduced 163 million additional dollars to go to 
projects. The American Society of Engineers have given our 
locks, dams, and levees D and D minus grades. Reducing the 
level of investment in these areas is, as they have stated, a 
penny wise and a pound foolish. This is something we have to be 
aware of.
    In addition, the Republican bill slashes the Clean Water 
and Drinking Water State Resolving Fund by 56 percent, reducing 
the number of waste water and drinking water projects in 
communities across the country would be able to finance by 
approximately 750.
    So, again, I appreciate that we need to make sure that 
things are in balance, but that we have priorities, and that we 
find that balance, especially as we talk about access to clean 
drinking water.
    Commissioner Connor, one of the projects that I wanted to 
visit with you about is a project that I know many of my 
colleagues, not only current but former, have had a chance to 
visit this beautiful area of New Mexico, up in the northern 
area there, which borders the Colorado border. It is the 
Hickory Apache Reservation, and there is a whole water system 
project that was authorized in 2002. Today only 20 percent of 
that authorization has come forward and the Hickory Apache 
Nation's cost share was $15 million, which they met prior to 
the authorization of the project.
    Since then the Nation as put together funding that they 
have had to take from other areas to try to maintain the 
investment that has been made. Because of the exposure to the 
system, you can imagine how it would be deteriorated. I don't 
have to go back to remind us what the grade of the American 
Society of Engineers has given us with some of our water 
infrastructure, a D and a D minus so when we make investments 
in infrastructure we have to make sure that we are going to put 
it in place timely.
    So, I would say, Commissioner, I appreciate the current 
funding levels that have been placed in the 2011 and 2012 
budget the Nation is looking to get consideration for the 
reimbursement of that project, but if we stay at the current 
levels it is going to take over a century to finish this 
project, and I think that we can very much see the exposure to 
the structure and the concerns that it has.
    Furthermore, in 2010, the Bureau of Reclamation initiated 
funding opportunities in connection with the rural water 
program. What is the status of that funding and those that were 
allocated to this project, and why was funding allocated for 
potential development of new rural water projects when existing 
authorized projects, such as the Eastern New Mexico Rural Water 
Project, have yet to receive any funding? Also, what are your 
thoughts pertaining to that in Eastern New Mexico, which is 
where we have many farmers, producers, and dairy? Cannon Air 
Force Base is also in this area, as well as the Cities of 
Clovis and Portales, and they impact the community of Tucumcari 
as well.
    Mr. Connor. Thank you for the question. I am very familiar 
personally with the Hickory project and the Eastern New Mexico 
rural water system project, and I understand the needs and the 
benefits of those projects.
    With respect to your question about the funding opportunity 
announcement, we had $2.6 million under our rural water program 
that we made available to help communities across the West do 
an assessment of their needs and identify projects that they 
had done some preliminary work on to satisfy those long-term 
needs. A lot of these communities out West are dealing with 
unsustainable groundwater use or groundwater that has been 
impacted from an quality perspective and no longer meet certain 
standards, and so they are looking for other alternatives.
    So, we think it is part of what we can do to a modest 
amount to help those communities identify their alternatives 
even as I would concede we have a rural water program and 
authorized projects that we have taken a reduction of in this 
budget, and it is part of the difficult decisions that we are 
having to make with projects that have high value for those 
communities and are certainly needed, but we have limited 
resources and have to live within those resources, particularly 
as we do our part for this overall deficit situation that we 
have as a Federal Government.
    So, we were happy to make the large investment in rural 
water projects. Unfortunately, the two projects you mention, as 
a result of the Recovery Act, the $232 million I talked about 
before, unfortunately we weren't able to obligate anything for 
the two New Mexico projects. It is still an important program 
to the Bureau of Reclamation and we have not cut it completely, 
and we are going to look for opportunities to try and innovate 
some of those projects and move forward with them.
    Mr. Lujan. Thank you.
    Mr. McClintock. Mr. Labrador?
    Mr. Labrador. Mr. Chairman, I am just going to yield my 
time to Mr. Denham, the good gentleman from California.
    Mr. Denham. Just one final follow-up question, Mr. Connor. 
This new office that we are going to have are there also going 
to be Fish and Wildlife Service hired for that office?
    Mr. Connor. Not brought in directly to the office. We are 
trying to do a much better job of coordinate amongst the three 
Federal agencies, Reclamation, Fish and Wildlife Service and 
NOAA Fisheries, so we are working and we have provided some 
funds under the Central Valley Improvement Act that we have for 
Fish and Wildlife Service and NOAA Fishery folks so that we can 
be better coordinated in the implementation and the science 
behind the biological opinions.
    Hiring new Fish and Wildlife Service into that new office, 
I don't believe so, but I will check that for the record.
    Mr. Denham. Thank you. So again, just restructuring, taking 
employees from other office buildings. I am sure you saw this 
morning that the President re-committed once again to reducing 
the amount of public buildings that we own. We currently have 
over 1.2 million buildings, of which 55,000 are underutilized 
and another 14,000 are vacant. I would assume that if you are 
moving employees into a new GSA office, that you are also going 
to be adding properties or buildings to that underutilized 
vacant list and help to facilitate selling those properties 
off?
    Mr. Connor. We are looking very strenuously at any 
opportunity to reduce administrative costs within the Bureau of 
Reclamation. Our goal, and we recognize we are living in tight 
budget times, our goal is to not take those out of programs. 
Where we can look for efficiencies, reduce cost, we are going 
to do that.
    I will give you some quick figures. Bureau of Reclamation 
employees, 7,239 in 1993; 5,632 in 2000; 5,750 in 2004; today 
our estimate is 5,116. The Bureau of Reclamation is doing more 
with less these days.
    Mr. Denham. Thank you. Specifically, I assume that you are 
not going to go out and build new office space. You are going 
to work with GSA to utilize one of their underutilized 
properties. Which properties are you going to then be either 
renting out, leasing out, or vacating so that we can sell them?
    Mr. Connor. We will get you an answer on that point.
    Mr. Denham. Thank you.
    Mr. McClintock. Mr. Garamendi.
    Mr. Garamendi. Mr. Connor, in your testimony awhile back 
you mentioned the release of water from Folsom Reservoir, flood 
flow release. My question goes to both you and Mr. Werkheiser 
about the way in which we manage our reservoirs. As I 
understand it, our reservoirs are managed for both flood 
control purposes as well as for water storage, but based upon a 
historic average rainfall, snowfall, snow pack and the like, 
based upon the last 40-50 years, in other words, controlled by 
the Corps of Engineers book.
    Mr. Connor. Right.
    Mr. Garamendi. On the American River we established a 
program about four years ago in which we would try to institute 
a real time monitoring system, one that would measure the 
precipitation on a real time basis, the snow, the content, the 
water content of the snow, the temperature of the snow using 
satellite as well as ground sensing devices for the purposes of 
trying to maximize both the flood storage and the water storage 
simultaneously; that is, using real time.
    I would like to have an update on the status of that 
project. It seemed to have been on in which all of the water 
interest on the American River were involved; certainly the two 
of you, or your two agencies as well as the Corps of Engineers, 
state, and Sacramento Municipal Utility Districts.
    I don't need the answer right now but I would like an 
update on that, and if it were to work, it could then be used 
in other basins, again to maximize both flood potential and 
water storage. If you could deliver that to me in the near 
future, I would appreciate it.
    Mr. Chairman, I yield back my time.
    Mr. McClintock. And with that I would like to thank our 
witnesses for their testimony today. Members of the 
Subcommittee might have additional questions for the witnesses. 
We would ask that they respond to these in writing. The hearing 
record will be open for 10 days to receive these responses. If 
there is no further business, without objection, the 
Subcommittee stands adjourned.
    [Whereupon, at 12:18 p.m., the Subcommittee was adjourned.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
